FEBRUARY 12, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




             NASA’S EFFORTS TO
REDUCE UNNEEDED INFRASTRUCTURE AND FACILITIES




                                          OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-008 (ASSIGNMENT NO. A-11-019-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

BRAC         Base Realignment and Closure
CPRA         Civilian Property Realignment Act
CPM          Corporate Portfolio Management
CRV          Current Replacement Value
DoD          Department of Defense
GAGAS        Generally Accepted Government Auditing Standards
GAO          Government Accountability Office
GSA          General Services Administration
MSC          Mission Support Council
NTCD         NASA Technical Capabilities Database
OIG          Office of Inspector General
RPMS         Real Property Management System
SLS          Space Launch System



                                                                REPORT NO. IG-13-008
FEBRUARY 12, 2013




                                                                                            OVERVIEW

       NASA’S EFFORTS TO REDUCE UNNEEDED INFRASTRUCTURE
                         AND FACILITIES

                                                                                              The Issue

   NASA is the ninth largest Federal Government real property holder, with more than
   124,000 acres and over 4,900 buildings and other structures with a replacement value of
   more than $30 billion. The Agency’s property is primarily located at 10 Centers in
   Alabama, California, Florida, Maryland, Mississippi, Ohio, Texas, and Virginia and
   includes technical facilities such as wind tunnels, rocket test stands, and launch
   complexes, and nontechnical facilities such as office buildings, roads, fences, and utility
   systems. Together, these assets enable approximately 64,000 civil servants, contractors,
   and other partners to advance the Nation’s interests in aeronautical research, science, and
   space flight.

   A large proportion of NASA’s buildings and other structures were constructed in the
   1960’s during the Apollo era, and nearly 80 percent of the Agency’s facilities are 40 or
   more years old. Since 2005, NASA’s annual operations and maintenance costs have
   increased by $173 million or 44 percent, and as of 2010, the Agency has over $2.6 billion
   in annual deferred maintenance costs.1 Nevertheless, the Agency continues to retain real
   property that is underutilized, does not have identified future mission uses, or is
   duplicative of other assets in its real property inventory. A 2012 Agency study estimated
   that NASA may have as many as 865 unneeded facilities with associated maintenance
   costs of over $24 million a year.

   NASA’s Office of Inspector General (OIG), the Government Accountability Office
   (GAO), and Congress have identified NASA’s aging and duplicative infrastructure as a
   high priority and longstanding management challenge. The most recent formal
   congressional statement about NASA’s excess infrastructure came in the NASA
   Authorization Act of 2010, which directs the Agency to examine its real property assets
   and downsize to fit current and future missions and expected funding levels ―paying
   particular attention to identifying and removing unneeded or duplicative infrastructure.‖2

   Despite this consensus, NASA has struggled to make significant headway in reducing its
   infrastructure and repeatedly failed to meet its own reduction goals. For example, in
   1996 GAO reported that NASA would not meet its goal of reducing excess infrastructure

   1
       NASA defines deferred maintenance as essential but unfunded work necessary to bring facilities up to
       required maintenance standards.
   2
       Public Law 111-267, ―NASA Authorization Act of 2010,‖ October 11, 2010.



REPORT NO. IG-13-008
                                                                                            OVERVIEW

     by 25 percent by the end of the decade and was actually building new facilities faster than
     it was consolidating or closing existing ones. Similarly, a 2005 internal NASA study
     conducted after the decision to end the Space Shuttle Program recommended closure or
     consolidation of three NASA Centers and three component sites because of a decline in
     overall workload.3 Ultimately, with the exception of Santa Susana Field Laboratory,
     NASA took no action on the study’s recommendations.

     Implementing meaningful reductions to its infrastructure and facilities portfolio will
     continue to be a difficult challenge for NASA for several reasons. First, the Agency has
     undergone considerable changes in mission focus over the past 6 years with the end of
     the Space Shuttle Program, initiation and termination of the Constellation Program, and
     the early stages of development of the new heavy-lift rocket and crew capsule. At the
     same time, NASA must contend with a long history of decentralized governance, intense
     local and political interest in its Centers and their real property assets, and the likelihood
     of flat or reduced budgets.

     In this audit, we reviewed NASA’s efforts to reduce its underutilized and duplicative
     infrastructure. Specifically, we examined the extent to which the Agency is currently
     utilizing or has a future mission-related need for 153 key technical facilities including
     wind tunnels, test stands, thermal vacuum chambers, airfields, and launch-related
     infrastructure; identified the challenges that have hindered the Agency’s past efforts to
     reduce underutilized infrastructure; and reviewed its ongoing and planned infrastructure
     management efforts. Details of the audit’s scope and methodology are in Appendix A.

     Results

     During our fieldwork we identified a variety of facilities at multiple NASA Centers that
     the Agency was not utilizing or for which Agency officials could not identify a future
     mission use. These facilities ranged from smaller, low value post-World War II era
     thermal vacuum chambers to newer rocket test stands that cost several hundred million
     dollars to construct.

     We concluded that previous efforts by NASA to reduce its underutilized facilities have
     been hindered by: 1) fluctuating and uncertain strategic requirements; 2) Agency culture
     and business practices; 3) political pressure; and 4) inadequate funding. The combination
     of these forces has frustrated NASA’s efforts over the years to make meaningful
     reductions in the size of its real property portfolio.

     We also found that NASA recently launched several promising initiatives to manage its
     infrastructure, including organizational changes, a new facilities strategy, an analytical
     framework for making infrastructure decisions, and improvements in managing its real
     property data. While we view these initiatives as positive steps, most are in the early
     stages of development. As noted above, NASA has attempted infrastructure reduction
     initiatives in the past with limited success. Absent strong and sustained leadership to see
     3
         NASA Draft Report, ―Real Property Mission Analysis,‖ July 15, 2005.



ii                                                                             REPORT NO. IG-13-008
OVERVIEW

   its current efforts through and incorporate them into Agency policy, we are concerned
   that these latest efforts will meet a similar fate.

   Key Infrastructure Underutilized and Unneeded for Future Missions. Through our
   on-site inspections, we found at least 33 facilities that were underutilized or for which
   NASA managers could not identify a future mission use.4 The need for these facilities
   have declined in recent years as a result of changes in NASA’s mission focus, the
   condition and obsolescence of some facilities, and the advent of alternative testing
   methods. NASA has taken steps to minimize the costs of continuing to maintain some of
   these facilities by placing them in an inactive state or leasing them to other parties.5

             Wind Tunnels. At least 6 of NASA’s 36 wind tunnels are currently underutilized
              or NASA managers could not identify how these facilities are needed to support
              future missions. NASA’s use of wind tunnels has declined in recent years due to
              a reduction in the Agency’s aeronautics budget, fewer new aircraft developments
              by the Department of Defense (DoD) and private industry, newer and more
              capable foreign testing facilities, and the advent of alternative testing methods
              such as Computational Fluid Dynamics.6

             Test Stands. As many as 14 of the Agency’s 35 rocket engine test stands are
              currently underutilized or NASA managers could not identify how these facilities
              are needed to support future missions. NASA’s use of test stands has declined in
              recent years primarily due to a lack of new, large-scale propulsion test programs.
              The ongoing development of the heavy-lift rocket associated with NASA’s Space
              Launch System (SLS) is not expected to alter this trend.

             Thermal Vacuum Chambers. At least 4 of the Agency’s 40 large thermal vacuum
              chambers are currently underutilized or NASA managers could not identify how
              they will be needed to support future missions. NASA’s use of the chambers has
              declined in recent years due to a lack of need by NASA programs and the poor
              condition of some chambers.

             Airfields. We found that two of the Agency’s three airfields – Moffett Federal
              Airfield at Ames and Kennedy’s Shuttle Landing Facility – are currently
              underutilized or NASA managers could not identify how they will be needed to
              support future missions. Moffett almost exclusively supports non-NASA entities.
              The Kennedy facility supports non-NASA space hardware deliveries and was last
              used for a NASA mission in September 2012 by the plane carrying Space Shuttle
              Endeavour to its final home at the California Science Center.
   4
       NASA policy requires that utilization of active facilities is normally at least 50 percent or the usage level
       exceeds 50 percent of the number of days that it is available.
   5
       Inactive states are: 1) standby – facility not in current use but essential operating systems are maintained
       in a state of readiness for future use; 2) mothball – facility maintained to the extent necessary to prevent
       deterioration of essential systems; and 3) abandoned – only maintenance performed is that necessary to
       ensure the facility does not pose a safety hazard.
   6
       This testing method uses supercomputers to create three-dimensional graphic illustrations of airflow
       around an aircraft, thus reducing the need to conduct as many tests in wind tunnels.



REPORT NO. IG-13-008                                                                                                   iii
                                                                                                 OVERVIEW

               Launch Infrastructure. Seven of NASA’s launch-related facilities at Kennedy are
                underutilized or NASA managers could not identify how they will be needed to
                support future missions. These include solid rocket booster recovery facilities, a
                parachute refurbishment facility, a launch pad, and one Orbiter processing
                facility. NASA’s need for this infrastructure ended last year as the Space Shuttle
                Program was phased out; however, timely decisions on the future of these
                facilities is vital in light of the amount of time the Agency had to plan for the
                Shuttle Program’s end and the high costs associated with continuing to maintain
                them. To its credit, Kennedy has leased one Orbiter processing facility and is
                seeking commercial companies to lease several other sites. If tenants are not
                found by March 2013, the Center plans to place the facilities in inactive states and
                seek funds for eventual demolition.

     Interrelated Challenges Hinder NASA’s Ability to Reduce its Infrastructure. We
     identified four interrelated factors that have hindered past efforts to reduce NASA’s
     infrastructure: 1) fluctuating and uncertain strategic requirements; 2) Agency culture and
     business practices; 3) political pressure; and 4) inadequate funding.

     Fluctuating and Uncertain Requirements. Changes to the Nation’s space policy initiated
     by Congress, the President, and NASA have increased the difficulty of determining
     which facilities the Agency needs to accomplish its mission. For example, NASA’s
     Human Exploration and Operations mission has transitioned from the Space Shuttle
     Program to the Constellation Program to the Space Launch System (SLS) Program in just
     6 years. Because decisions of whether to retain, consolidate, or dispose of specific
     facilities depend heavily upon the missions NASA undertakes, frequent changes to those
     missions complicate the task of managing the Agency’s infrastructure.

     A recent example of this issue is the A-3 test stand located at Stennis Space Center,
     which was built to meet special testing requirements associated with the rockets being
     built for NASA’s Constellation Program. When the Constellation Program was cancelled
     in 2010, the test stand was approximately 65 percent complete. In accordance with
     direction in the NASA Authorization Act of 2010, the Agency will soon complete
     construction of the test stand at a total cost of nearly $350 million.7 Because neither the
     SLS nor any other existing or planned NASA program requires the A-3’s capabilities,
     NASA plans to mothball the test stand when construction is complete. The associated
     annual operations and maintenance costs of the mothballed A-3 test stand will exceed
     $1.5 million.

     Agency Culture and Business Practices. Historically, NASA has practiced a
     decentralized approach to managing its infrastructure that creates a rivalry between the
     Centers to compete for work from the Agency’s major programs and rewards a ―keep it
     in case you need it‖ philosophy. This culture has fostered a propensity for Centers to
     build or preserve facilities that duplicate capabilities available elsewhere in the Agency or
     lack an identified mission use. For example, NASA currently has 36 wind tunnels at


     7
         Public Law 111-267 (section 304), ―NASA Authorization Act of 2010,‖ October 11, 2010.



iv                                                                                   REPORT NO. IG-13-008
OVERVIEW

   5 Centers, 35 rocket test stands at 6 sites, and 40 large thermal vacuum chambers at
   7 locations.

   Political Pressure. The political context in which NASA operates often impedes its
   efforts to reduce Agency infrastructure. During our review, we noted several examples
   where political leaders intervened in plans to close or consolidate Agency facilities. For
   example, members of Congress opposed NASA’s decision to consolidate the Agency’s
   Arc Jet operations at Ames, directed completion of the A-3 test stand even though the
   rocket engine for which it was being built had been cancelled, and contested the
   Agency’s decision to seek alternatives for the future use of Hangar One and Moffett
   Federal Air Field at Ames. While pressure from Federal, state, and local officials is not
   unique to NASA, it creates additional difficulties for the Agency as it seeks to manage its
   aging and expansive infrastructure.

   Inadequate Funding. Demolishing or disposing of facilities that NASA no longer needs
   to fulfill its mission is not without cost. In many instances, NASA must conduct
   environmental remediation before it can dispose of a facility. For example, NASA has
   estimated that the environmental cleanup of its Santa Susana Field Laboratory will cost
   between $25 and $209 million. Accordingly, the Agency’s ability to reduce its real
   property footprint depends on available funding for cleanup and other costs associated
   with demolition and disposal. However, in this era of constrained Federal budgets, the
   amount of money dedicated to these activities is not likely to increase. In fact, the Office
   of Management and Budget reduced NASA’s proposed recapitalization budget for
   renewing and replacing facilities for fiscal year (FY) 2013 through FY 2017 by
   approximately 60 percent.

   NASA Has Recently Taken Positive Steps to Manage its Infrastructure, But
   Sustained Leadership Will be Required to Overcome Longstanding Challenges.
   NASA has recently launched several promising initiatives to manage its infrastructure: 1)
   organizational changes to strengthen central authority over infrastructure decisions; 2)
   development of an Agency Facility Strategy and Integrated Agency-wide Real Property
   Master Plan; 3) development of a Corporate Portfolio Management Process; 4)
   improvements in managing its real property data; and 5) development of a strategic
   technical capabilities assessment. However, these efforts are evolving and will require
   sustained leadership to overcome the longstanding challenges identified in this report.

   Organizational Structure Changes. NASA has taken steps to centralize real property
   decision making, including establishing an Agency Council to oversee infrastructure
   decisions and a Directorate-level position to manage and provide additional authority
   over infrastructure decisions. We view these changes as positive steps to addressing the
   challenges resulting from the Agency’s decentralized governance structure.

   Facilities Strategy and Integrated Agency-wide Master Planning. NASA developed an
   Agency Facilities Strategy in 2009 that calls for consolidation of its technical and
   nontechnical facilities to achieve efficiencies and set goals to reduce infrastructure. To
   implement this strategy and better coordinate projected funding with facilities resource
   needs, NASA developed its first real property Agency-wide integrated master plan.


REPORT NO. IG-13-008                                                                              v
                                                                                                            OVERVIEW

     Although we believe these initiatives are positive steps toward reducing and better
     managing NASA’s diverse real property assets, the Agency is still implementing a series
     of recommendations we made in a previous audit aimed at improving the Agency-wide
     Master Plan.8

     Corporate Portfolio Management. NASA is developing a Corporate Portfolio
     Management (CPM) process, which is an analytical framework designed to assist
     managers in identifying, grouping, and evaluating the Agency’s capabilities (defined as
     people, facilities, and other direct costs) into a set of portfolios to manage infrastructure
     needs. NASA originally planned to have CPM fully implemented by spring 2012;
     however, the effort is behind schedule. According to Mission Support Directorate
     officials, the delay was due to their decision to pilot the process by first analyzing
     possible consolidation of airfields, thermal vacuum chambers, test stands, and wind
     tunnels before examining other Agency assets.9

     We reviewed the CPM pilot and found that while more analytical and transparent than
     past infrastructure reduction efforts, the process may still fall short of overcoming the
     cultural and fiscal challenges highlighted in this report. As of completion of the pilot
     process in July 2012, the Associate Administrator for the Mission Support Directorate
     recommended, and the Mission Support Council approved for divestiture, only 7 of
     the 101 facilities that were evaluated.10 We are concerned about the small number of
     facilities selected, particularly because Mission Support Directorate officials told us the
     pilot process was targeted to facilities considered easy choices or ―low hanging fruit,‖
     including facilities that, at the time of evaluation, were mothballed or not being utilized.
     Although we believe CPM is a positive step toward better facilities management, Agency
     leadership must be willing to move beyond the ―low hanging fruit‖ when selecting
     facilities for elimination or consolidation to show maximum results.

     Real Property Data. In conjunction with CPM, the Agency is developing the NASA
     Technical Capabilities Database (NTCD) to identify and track all Center technical
     capabilities and their associated resources (supply) and map them to projected mission
     requirements (demand) across the Agency. The creation of NTCD should help the
     Agency better analyze and determine its infrastructure needs; however, we found
     instances in which the data contained in the NTCD was inconsistent and incomplete. In
     addition, our previous audit work identified numerous data quality issues with NASA’s
     Real Property Management System (RPMS) and ultimately deemed the data within that
     system unreliable because the Centers used inadequate processes to gather and update

     8
         NASA OIG, ―NASA’s Infrastructure and Facilities: An Assessment of the Agency’s Real Property Master
         Planning‖ (IG-12-008, December 19, 2011). We found that NASA is developing its initial master plan
         based on Center master plans that (1) were developed using funding assumptions that are no longer
         realistic and (2) are missing essential information. In addition, 5 out of the 10 Centers did not develop
         master plans to reduce their real property footprint in accordance with Agency goals.
     9
         The pilot process is known throughout the Agency as the NASA Technical Capabilities Forum Phase II.
         The Agency held two capability forums (2010 and 2011) to determine the size of all Center technical
         capabilities and to identify capabilities with funding gaps. Officials decided to continue the work started
         at these forums by using the data to pilot the larger CPM process.
     10
          Divestiture is the transfer, removal, or abandoning in place of an asset.



vi                                                                                          REPORT NO. IG-13-008
OVERVIEW

   data.11 In addition, we found that the Centers still lacked adequate records regarding past
   or planned usage for many of the facilities reviewed during this audit. Lack of complete
   and consistent data hampers the Agency’s ability to identify whether key facilities are
   being utilized and to certify whether technical capabilities are available and appropriately
   sized to support current and future missions.

   Comprehensive Technical Capabilities Assessment. In July 2012, the Agency – under the
   leadership of the Associate Administrator – began developing a process to complete a
   comprehensive technical capability assessment that will identify and evaluate the
   capabilities of individual NASA Centers against the current and future needs of the
   Agency. Through this assessment, NASA plans to rank each Center’s principal
   capabilities and evaluate them against the needs of the Mission Directorates to identify
   capabilities that may be unnecessary or consolidated. Although we are encouraged that
   the Agency is structuring this process to minimize the historical predisposition for
   Centers to build up and retain capabilities and facilities to compete for work, the Agency
   faces several challenges in implementing this process, including the transparency of the
   process to internal and external stakeholders and the inevitable political opposition to
   eliminating or consolidating capabilities and associated infrastructure at NASA Centers.



                                                                                        Conclusion

   NASA officials readily acknowledge that the Agency has more infrastructure than it
   needs to carry out current and planned missions. To its credit, NASA has a series of
   initiatives underway that, in our judgment, are positive steps towards ―rightsizing‖ its real
   property footprint. The development of an Agency Facilities Strategy and Integrated
   Master Plan, capability assessments, and organizational changes to centralize decision
   authority over infrastructure matters should better position the Agency to strategically
   assess infrastructure needs, manage underutilized property, and divest itself of facilities
   that are duplicative or unneeded. However, many of these efforts are in the early stages
   and their ultimate effect on the Agency’s ability to reduce its real property portfolio
   remains unclear.

   Given the disparity between the Agency’s infrastructure and its mission-related needs, as
   well as the likelihood of continued constrained budgets, it is imperative that NASA move
   forward aggressively with its infrastructure reduction efforts. To achieve this goal, the
   Agency will need to move away from its longstanding ―keep it in case you need it‖
   approach to managing its infrastructure and overcome historical incentives for the
   Centers to build up and maintain unneeded capabilities. In addition, NASA officials will
   need to manage the concerns of political leaders about the impacts eliminating or
   consolidating facilities will have on the Centers’ missions and their workforces and on
   the local communities. Moreover abrupt changes in the strategic direction of the Nation’s
   space policy by Congress, the President, and the Agency will continue to add an element
   11
        NASA OIG, ―NASA Infrastructure and Facilities: Assessment of Data Used to Manage Real Property
        Assets‖ (IG-11-024, August 4, 2011).



REPORT NO. IG-13-008                                                                                     vii
                                                                                           OVERVIEW

       of uncertainty regarding the missions the Agency will pursue and therefore the facilities it
       will need to achieve those missions.

       Against this complicated backdrop, successfully rightsizing NASA’s real property
       footprint will require a sustained commitment from Agency leaders to see its ongoing
       infrastructure-related initiatives through to completion. Specifically, Agency leaders
       must ensure that these initiatives are institutionalized, coordinated, and communicated
       both inside and outside the Agency. In addition, they must be willing to make the
       difficult decisions to divest unneeded infrastructure, effectively communicate those
       decisions to stakeholders, and withstand the inevitable pressures from Federal, state, and
       local officials.

       Finally, we acknowledge that NASA’s best efforts to address these challenges may be
       insufficient to overcome the cultural and political obstacles to eliminating or
       consolidating Agency facilities and that an outside process similar to DoD’s Base
       Realignment and Closure Commission (BRAC) may be necessary.

       Management Action

       To ensure that NASA’s ongoing efforts to evaluate Center capabilities against the current
       and future missions of the Agency are completed and that such efforts are conducted on a
       regular basis and sustained over time, we recommended that NASA’s Associate
       Administrator complete the Agency’s ongoing comprehensive technical capabilities
       assessment and ensure that the assessment includes a process for communicating
       decisions to outside stakeholders and is established into Agency policy. We also
       recommended that NASA’s Associate Administrator for Mission Support expedite
       implementation of CPM and develop processes to improve data accuracy with the NTCD.

       In response to a draft of this report, the Associate Administrator for Mission Support
       concurred with our recommendations to complete the comprehensive capabilities
       assessment, implement CPM, improve the accuracy of NTCD or alternative systems, and
       establish all processes in Agency policy by September 2014. We find the Agency’s
       proposed actions address the intent of our recommendations. Accordingly, we are
       resolving the recommendations and will close them upon completion and verification of
       the proposed corrective actions.




viii                                                                          REPORT NO. IG-13-008
FEBRUARY 12, 2013




                                                       CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 6

   RESULTS
      Reducing NASA’s Underutilized Infrastructure Will Require
        Sustained Leadership to Overcome
        Longstanding Challenges_____________________________ 7

   APPENDIX A
      Scope and Methodology _______________________________ 31
      Review of Internal Controls ____________________________ 32
      Prior Coverage ______________________________________ 33

   APPENDIX B
      Management Comments ______________________________ 34

   APPENDIX C
      Report Distribution ___________________________________ 36




REPORT NO. IG-13-008
February 12, 2013



                                                                                    INTRODUCTION


Background

   NASA is the ninth largest Federal Government real property holder, with more than
   124,000 acres and 4,900 buildings and other structures with an overall replacement value
   of over $30 billion. The Agency’s property is primarily located at 10 Centers in
   Alabama, California, Florida, Maryland, Mississippi, Ohio, Texas, and Virginia and
   includes technical facilities such as wind tunnels, rocket test stands, and launch
   complexes, and nontechnical facilities such as office buildings, fences, and utility
   systems. Together, these assets enable approximately 64,000 civil servants, contractors,
   and other partners to advance the Nation’s interests in aeronautical research, science, and
   space flight.

   The NASA Authorization Act of 2010 directed NASA to examine its real property assets
   and, as appropriate, downsize to fit current and future missions and expected funding
   levels, ―paying particular attention to identifying and removing unneeded or duplicative
   infrastructure.‖12 Implementing this directive presents an extremely difficult challenge to
   NASA, an Agency with a considerable amount of aged and degraded infrastructure that
   has undergone significant changes in mission focus with the recent end of the Space
   Shuttle Program and ongoing development of the Space Launch System (SLS). To meet
   its infrastructure challenges, NASA managers must identify and assess the conditions,
   current utilization rates, and future need for thousands of structures to determine which
   the Agency should keep and how best to dispose of those that are no longer needed.

   State of NASA Infrastructure. A large portion of NASA’s infrastructure was
   constructed in the 1960’s during the Apollo era and nearly 80 percent of the Agency’s
   facilities are 40 or more years old. This aging infrastructure presents considerable risk to
   NASA’s overall mission success as facilities degrade and become obsolete and
   considerably more expensive to maintain. Since 2005, NASA’s annual operations and
   maintenance costs for its facilities have increased 44 percent to $567 million, and as of
   2010 the Agency had more than $2.6 billion in annual deferred maintenance costs.13

   Numerous studies and reports over the past decades by NASA, NASA’s Office of
   Inspector General (OIG), the Government Accountability Office (GAO), and others have
   focused on NASA’s aging and duplicative infrastructure. For example, a 2010 report by
   the National Research Council found that a steady and significant decrease in NASA’s



   12
        Public Law 111-267, ―NASA Authorization Act of 2010,‖ October 11, 2010.
   13
        NASA defines deferred maintenance as essential but unfunded work necessary to bring facilities up to
        required maintenance standards.



REPORT NO. IG-13-008                                                                                           1
                                                                                               INTRODUCTION



    laboratory capabilities had adversely affected the Agency’s ability to make basic
    scientific and technical contributions to the Nation and to support NASA’s own goals.14

    Other key segments of NASA’s technical infrastructure face similar problems. For
    example, nearly all of NASA’s major wind tunnels were built between 40 and 70 years
    ago. Historically, some of these facilities have been perceived by potential industry users
    as lacking in terms of modern testing amenities and productivity.15 As a result, U.S.
    aerospace manufacturers have increasingly opted to use European wind tunnels that are
    newer and more technologically advanced.16

    In addition to issues related to the age and condition of its facilities, NASA officials
    acknowledged that they are retaining facilities the Agency no longer needs and that this is
    depleting funds for revitalization efforts. As a result, NASA has begun several initiatives
    to identify and dispose of unneeded infrastructure. For example, NASA’s Program
    Analysis & Evaluation Office conducted a study in 2009 that identified 203 facilities that
    the Agency’s Mission Directorates had no requirement for after 2012. These facilities,
    were located across all NASA Centers, included wind tunnels, test stands, and airfields;
    comprised approximately 1.9 million square feet; and cost the Agency nearly $14 million
    per year to operate and maintain. Similarly, in 2012 NASA’s Facilities Engineering and
    Real Property Division completed an assessment that identified 865 assets as potential
    candidates for disposal, including research laboratories, wind tunnels, and test stands
    valued at approximately $2.2 billion and with annual operations and maintenance costs of
    over $24 million.

    NASA’s Options for Managing its Underutilized Infrastructure. NASA has several
    options for dealing with infrastructure it identifies as underutilized, including continuing
    to retain the property in an active state, placing the property in various inactive states,
    making the property available for lease to a government or private tenant, reporting the
    property to the General Services Administration (GSA) for sale or transfer to another
    entity, or demolition. Because maintaining property that is seldom used in an active state
    can be quite costly, NASA policy encourages Centers to place underutilized properties in
    an inactive state when lease, transfer, or demolition are not suitable options.17 Inactive
    properties can be placed into one of several different categories: ―standby‖ for facilities
    that are temporarily not in use but whose essential operating systems need to be
    maintained in a state of readiness for future use; ―mothball ‖ for facilities that are
    deactivated and maintained only to the extent necessary to prevent deterioration of


    14
         National Research Council, ―Capabilities for the Future: An Assessment of NASA Laboratories for
         Basic Research,‖ 2010.
    15
         NASA, Wind Tunnel Study Task Team Report, ―Assessment of NASA’s Major Wind Tunnel Facilities,‖
         August 1987.
    16
         Congressional Research Service Report 95-103SPR, ―Wind Tunnels: Proposal for a New National Wind
         Tunnel Complex,‖ March 8, 1995.
    17
         NASA Procedural Requirements (NPR) 8800.15B, ―Real Estate Management Program,‖ June 21, 2010.



2                                                                                     REPORT NO. IG-13-008
INTRODUCTION

   essential systems; and ―abandoned‖ for facilities on which the Agency performs only the
   maintenance necessary to ensure the facility does not pose a safety hazard.

   NASA can also choose to dispose of unneeded properties, although it must consult with
   the GSA to sell property. 18 NASA has the option to report property without a current or
   foreseeable future use to the GSA as ―excess‖ where it is first made available for transfer
   to other Federal agencies followed by possible public benefit conveyances, negotiated
   sales, or public land sales.19 If the property is not claimed by another Federal agency,
   conveyed, or sold—a process that can take years—NASA can demolish it. Finally,
   NASA can lease underutilized property for which it may have a future mission use to
   external parties.

   NASA’s Infrastructure Management. A number of entities at both the Headquarters
   and Center levels have responsibility for managing NASA’s infrastructure. At the
   Headquarters level, NASA’s Associate Administrator for Mission Support has overall
   responsibility for managing the Agency’s infrastructure. Under the leadership of the
   Associate Administrator, the Office of Strategic Infrastructure provides executive
   leadership, institutional support, guidance, and oversight for NASA’s real property and
   management systems. The Office of Strategic Infrastructure’s Facilities Engineering and
   Real Property Division provides leadership for all Agency facility engineering programs
   including facility planning, construction, maintenance, and real estate. NASA’s other
   Headquarters Mission Directorates – Human Exploration and Operations, Aeronautics
   Research, and Science – are also involved in infrastructure management decisions, as
   they develop and manage the Agency’s mission requirements and assist in identifying
   and funding facilities to support those requirements. The Aeronautics Research and
   Human Exploration and Operations Mission Directorates also oversee NASA’s
   Aeronautics Test and Rocket Propulsion Test programs, which are responsible for the
   strategic utilization, operations, maintenance, and investment decisions for the Agency’s
   wind tunnels and test stands.

   Major infrastructure decisions are vetted through the Agency’s Mission Support Council,
   which serves as NASA’s senior decision-making body regarding facilities strategy and
   master planning.

   While these Headquarters-based organizations are responsible for providing oversight
   and guidance relating to infrastructure management, the Directors of the NASA Centers
   have overall authority over the real property located at their sites. To guide their
   decisions, Center Directors consult Center Master Plans that articulate a vision for the
   future development of the Center’s real property assets, including land, buildings,
   physical resources, and infrastructure. Each Center also has its own facilities
   management organization staffed with Real Property Accountable Officers, Facility
   Utilization Officers, and other support staff.

   18
        40 U.S.C., section 471, ―Federal Property and Administrative Services Act of 1949.‖
   19
        If excess property is not transferred to another Federal agency, GSA can ―convey‖ or transfer the
        property to the public for certain uses, negotiate a sale at appraised fair market value with a state or local
        government, or conduct a competitive sale to the public, generally through a sealed bid or auction.



REPORT NO. IG-13-008                                                                                                     3
                                                                                                    INTRODUCTION



    NASA Infrastructure Management Viewed as a High Risk. NASA, NASA’s OIG,
    GAO, and Congress have identified NASA’s real property management as a high-risk
    area or top challenge for a number of years. OIG reports have identified issues with the
    quality of facility data, deferred maintenance costs, leasing initiatives, and facility
    utilization. In the 1990’s, GAO issued several reports and testified before Congress
    about NASA’s challenges to achieving reductions and efficiencies in its infrastructure
    and in 2003, GAO designated Federal real property as a high-risk area. In 2004, the
    President issued an Executive Order directing all Federal agencies to recognize the
    importance of real property resources through increased management attention, the
    establishment of clear goals and objectives, and improved policies and levels of
    accountability. Congress compelled further action by mandating in NASA Authorization
    Acts from 2005 to 2010 that the Agency assess its real property, management structure,
    capabilities, and right-sizing directives.

    Past Efforts to Reduce Infrastructure. For decades NASA has struggled with reducing
    its infrastructure and has failed to meet specific reduction goals. For example, in 1996
    GAO reported that NASA would not meet its internal goal of reducing infrastructure by
    25 percent by the end of the decade.20 GAO also found that NASA was building new
    facilities faster than it was consolidating or closing older sites and duplicative capabilities
    existed in major program areas. Similarly, in 2005 following the decision to end the
    Space Shuttle Program, NASA’s Administrator commissioned an internal study to assess
    the relevance of its facilities to its current and future work.21 The study took a critical
    look at each of the Agency’s 10 Centers and their principal component sites and made
    recommendations to close or consolidate 3 Centers and 3 component sites. The study
    found that due to a decline in aeronautics related work, Glenn could be closed and certain
    activities at Ames could be moved to other Centers. In addition, the study found that
    Plum Brook Station, Santa Susana Field Laboratory, Stennis Space Center, and Wallops
    Flight Facility had insufficient work to justify continued operations. With the exception
    of Santa Susana, NASA took no action to implement the study’s recommendations.22

    Current Progress in Reducing Infrastructure. As shown in Table 1, NASA has made
    recent progress in reducing its infrastructure by decreasing the number of technical and
    nontechnical facilities by 58 between 2006 and 2011 and decreasing the Current
    Replacement Value (CRV) of its facilities by $636 million.23 While the Agency’s square

    20
         GAO/NSIAD-96-187, ―NASA Infrastructure: Challenges to Achieving Reductions and Efficiencies,"
         September 1996.
    21
         NASA Draft Report, ―Real Property Mission Analysis,‖ July 15, 2005.
    22
         In April 2009, NASA formally notified Congress that it intended to declare its property at the Santa
         Susana Field Laboratory as excess to its needs.
    23
         The Agency uses CRV to measure facility reduction progress because it better reflects certain high-dollar
         NASA assets. For example, many of the Agency’s large capabilities – such as test stands, launch pads,
         and underground utilities – do not have square footage directly associated with them. Accordingly,
         tracking progress by reduction in square footage would not capture changes relating to these types of
         assets.



4                                                                                         REPORT NO. IG-13-008
INTRODUCTION

   footage actually increased by 2.3 million, most of that increase is attributable to the 2011
   transfer of a 1.6 million square foot facility from the U.S. Army to Stennis as part of the
   DoD Base Realignment and Closure process (BRAC). Despite this progress, our prior
   work has shown that 5 of the 10 NASA Centers (Dryden, Goddard, Jet Propulsion
   Laboratory, Johnson, and Kennedy) are not on track to meet NASA’s goal of a 10 percent
   reduction in CRV by 2020 and 15 percent by 2055.24,25


          Table 1. FYs 2006–2011 Square Footage, CRV, Building/Structure Changesa FYs 2013–2020c
                                          Planned CRV Changes

                                                          Increase/Decrease
                                Square                                   Building and Other              FY 2013–2020
          NASA Center                                  CRV
                                Footage                                       Structure                  Planned CRV

        Ames Research                             ($553,781,488)
                                (101,411)                                           (24)                        (17.3%)
        Center
        Dryden Flight                              ($21,190,272)
                                   (2,991)                                            (2)                        (5.6%)
        Research Center
        Glenn Research                            ($103,524,912)
                                (140,473)                                           (31)                        (10.0%)
        Center
        Goddard Space                              ($2,184,090)
                                  249,293                                           (60)                         (3.5%)
        Flight Center
        Jet Propulsion                             $69,351,434
                                  139,956                                           (49)                          7.6%
        Laboratory
        Johnson Space                              $30,820,451
                                   49,179                                           (23)                         (6.8%)
        Center
        Kennedy Space                             ($216,121,982)
                                  129,239                                           (15)                         (5.1%)
        Center
        Langley Research                          ($234,136,940)
                                  (63,636)                                          (51)                        (15.0%)
        Center
        Marshall Space                            ($103,671,883)
                                  (33,120)                                          (13)                        (11.7%)
        Flight Center
        Stennis Space           2,128,375          $498,358,869                     210
        Center b                                                                                                (10.0%)

        Total Increase/
                                  2,354,411          ($636,080,813)                   (58)
        (Decrease)
        a.   Data provided by the Facilities Engineering and Real Property Office.
        b. In 2011, Stennis Space Center took possession of the former Mississippi Army Ammunition Plant, a 1.6 million square
             foot facility with approximately 200 facilities, from the U.S. Army as a result of the Base Realignment and Closure
             process.
        c.   Data obtained from IG Master Planning Report, IG-12-008.


   Federal Property Management Best Practices. Infrastructure management is an issue
   that has confounded agencies across the Federal Government for many years. While no
   process to identify and reduce unneeded infrastructure is perfect, organizations that have
   studied the issue have identified several consistent and recurring problems that affect
   agencies’ ability to reduce property and implement best practices that could assist in

   24
        NASA OIG, ―NASA’s Infrastructure and Facilities: An Assessment of the Agency’s Real Property
        Master Planning,‖ (IG-12-008, December 19, 2011).
   25
        Because of the varying mission requirements at each Center, NASA is currently in the process of revising
        its policy to set Agency-wide real property reduction goals rather than goals that are Center specific.



REPORT NO. IG-13-008                                                                                                               5
                                                                                           INTRODUCTION



    mitigating these issues and reaching their goals. For example, GAO has studied
    infrastructure issues across the Federal Government and found that agencies continue to
    experience difficulty disposing of unneeded property because they have not adequately
    addressed issues such as legal constraints, financial limitations, and stakeholder
    influences.26 These issues have affected the ability of Federal agencies to reduce their
    real property footprints and became the driving force behind creation of the BRAC in
    1988. To date, the BRAC process has resulted in the closure of more than 350 DoD
    installations and produced recurring cost savings of approximately $7 billion annually
    since 2001.

    Both the President and Congress members have proposed legislation to create a Civilian
    Property Realignment Act (CPRA) modeled after the BRAC process.27 In a June 2011
    testimony before the U.S. Senate’s Committee on Homeland Security and Governmental
    Affairs, GAO witnesses discussed key elements of the BRAC process that could be
    applicable to civilian agencies, including: 1) development of an organizational structure
    charged with making important decisions relating to infrastructure reduction goals; 2)
    establishing a common analytical framework; 3) standardizing decision criteria; and 4)
    independent verification of data accuracy.

Objectives

    Our overall audit objective was to determine whether NASA is taking appropriate action
    to identify and reduce its underutilized and duplicative infrastructure. Specifically, we
    examined the extent to which the Agency is currently utilizing or has a future mission-
    related need for 153 key technical facilities, namely wind tunnels, test stands, thermal
    vacuum chambers, airfields, and launch related infrastructure; identified the challenges
    that have hindered the Agency’s past efforts to reduce underutilized infrastructure; and
    reviewed its ongoing and planned infrastructure management efforts. (See Appendix A
    for details of the audit’s scope and methodology, our review of internal controls, and a
    list of prior coverage.)




    26
         GAO-11-704T Federal Real Property Proposed Civilian Board Could Address Disposal of Unneeded
         Facilities, June 2011.
    27
         Civilian Property Realignment Act, H.R. 1734.



6                                                                                  REPORT NO. IG-13-008
RESULTS



                                     REDUCING NASA’S UNDERUTILIZED AND
                                   UNNEEDED INFRASTRUCTURE WILL REQUIRE
                                       SUSTAINED LEADERSHIP TO OVERCOME
                                               LONGSTANDING CHALLENGES

               We found a variety of facilities at multiple NASA Centers that are underutilized or
               for which NASA officials could not identify a future mission-related use. These
               facilities ranged from smaller post-World War II era vacuum chambers to newer
               rocket test stands that cost several hundred million dollars to construct. NASA’s
               efforts to manage and reduce the number of underutilized facilities in its portfolio
               have been hindered by several longstanding and interrelated challenges, including: 1)
               fluctuating and uncertain strategic requirements; 2) Agency culture and business
               practices; 3) political pressure; and 4) inadequate funding. However, NASA has
               recently launched several promising initiatives to manage its infrastructure, including
               organizational changes, a new facilities strategy, an analytical framework for
               infrastructure decisions, and data management improvements. Although we view
               these initiatives as positive steps, most are still in the early stages of development
               and their ultimate effectiveness remains unclear. Moreover, we note that NASA has
               attempted infrastructure reduction initiatives in the past with limited success.
               Therefore, we believe that without strong and sustained leadership to see current
               efforts through, NASA will continue to be frustrated in its effort to ―right size‖ its
               real property footprint.

Key Infrastructure Underutilized and Not Needed for Future
  Missions

   Through on-site inspections, we found at least 33 facilities – wind tunnels, test stands,
   thermal vacuum chambers, airfields, and launch-related infrastructure – that the Agency
   was not fully utilizing or for which Agency managers could not identify a future mission
   use.28 The need for these 33 facilities – which cost the Agency more than $43 million to
   maintain in FY 2011 – has declined in recent years as a result of changes in NASA’s
   mission focus, the condition and obsolescence of some of the facilities, and the advent of
   alternative testing methods. However, in many cases NASA has taken steps or developed
   plans to minimize the costs of maintaining these facilities by placing them in ―mothball‖
   or ―standby‖ status. While deactivating facilities helps to reduce associated annual
   maintenance costs, in some cases the Agency may simply be incurring additional costs to
   maintain facilities that have aged beyond their useful life and are unlikely to be used
   again. In such cases, the costs associated with continuing to maintain the facilities may
   be greater than disposal costs.



   28
        NASA policy requires that utilization of active facilities is normally at least 50 percent or the usage level
        exceeds 50 percent of the number of days that it is available.



REPORT NO. IG-13-008                                                                                                    7
                                                                                                                       RESULTS

    Wind Tunnels. At least 6 of NASA’s 36 wind tunnels are currently underutilized or
    NASA managers could not identify how these facilities will be needed to support future
    missions. In FY 2011, NASA spent approximately $3.7 million to maintain these
    tunnels. (See Table 2 for additional details on the tunnels.)

    Most of NASA’s 36 wind tunnels are located at three of the Agency’s research Centers—
    Ames, Glenn, and Langley. They range in size from tunnels large enough to test a
    full-size airplane to those with a test section only a few inches square for testing small
    models.29 Many NASA programs have utilized the wind tunnels in the past, including
    NASA’s Fundamental Aeronautics Program, Integrated Systems Research Program, and
    the Space Shuttle Program. In addition, other Federal Agencies and commercial
    companies have used the tunnels (e.g., DoD, Boeing, and Lockheed Martin). Currently,
    NASA’s SLS Program is conducting testing at Marshall’s 14 x 14 Inch Trisonic Wind
    Tunnel and Engine Fluid Flow Facility. However, utilization of the Agency’s wind
    tunnels has declined in recent years due to a reduction in NASA’s Aeronautics budget,
    fewer new aircraft developments by the DoD and industry, newer and more capable
    foreign facilities, and the advent of new testing methods such as Computational Fluid
    Dynamics.30


                                        Table 2. Wind Tunnels without Future Work
                                                         Year    O&M*
            Facility                             Year    Last    Costs         Reason for
            Location        Facility Name        Built   Used                 Declining Use           Future Plans
                                                                            Foreign
                       12-Foot Pressure Wind
            Ames                                 1946    2003   $159,335    competition and        Remain in Standby
                       Tunnel
                                                                            reduced funding

                                                                            Reduced demand
                       8 x 7 - Foot Supersonic
            Ames                                 1955    1992   967,208     for high speed         Converted to storage
                       Wind Tunnel
                                                                            testing
                                                                            Used in 2012.
                       Abe Silverstein 10 x 10
                                                                            Limited future
            Glenn      Supersonic Wind           1955    2012   299,015                            Remain Active
                                                                            requirements due
                       Tunnel
                                                                            to lack of funding

            Langley    CF4 Tunnel Complex        1960    2010   241,806     Loss of funding        Abandon by 2012

                                                                            Used in 2012.
                       Unitary Plan Wind                                    Closing due to
            Langley                              1952    2012   1,962,344                          Mothball by 2014
                       Tunnel                                               duplicative testing
                                                                            capabilities
                       Atmospheric
            Stennis    Calibration Equipment     1975    2011    20,960     Reduced demand         Remain Active
                       Building
          * Operations and Maintenance Costs




    29
         NASA maintains various wind tunnels in order to test models at different wind speeds (subsonic,
         transonic, supersonic, and hypersonic) and for different reasons (aerodynamics, flight dynamics,
         propulsion, and icing).
    30
         NASA engineers use supercomputers to create three-dimensional graphic illustrations of airflow around
         an aircraft, thus reducing the need to conduct as many tests in wind tunnels.



8                                                                                                 REPORT NO. IG-13-008
RESULTS

   The six wind tunnels we identified are located at Ames, Glenn, Langley, and Stennis. At
   Ames, the 12-Foot Pressure Wind Tunnel and 8 x 7-Foot Supersonic Wind Tunnel have
                                                          not been used in more than a
                                                          decade and Center officials could
                                                          not identify a future mission-
                                                          related need. The 12-Foot Pressure
                                                          Wind Tunnel (see Figure 1) was
                                                          upgraded in 1994 at a cost of
                                                          $115 million; however, it was last
                                                          used in 2003 by the Department of
                                                          Energy. Center officials attributed
                                                          the lack of use to NASA’s
                                                          implementation of full-cost
                                                          recovery, which made foreign
                                                          testing facilities more cost-
                                                          effective than NASA facilities.31
    Figure 1. Ames’s 12 Foot Pressure Wind Tunnel.
                                                          The 8 x 7-Foot Wind Tunnel had
                                                          not been used for nearly 20 years
   due to an overall lack of demand for its high-speed testing capabilities.

   Glenn’s Abe Silverstein 10 x 10 Supersonic Wind Tunnel faces a period of declining
   utilization due to a lack of demand for high-speed testing capabilities and Center officials
   told us they were uncertain whether the wind tunnel would be needed to support NASA-
   specific missions beyond 2013. Glenn officials also stated that the facility would be used
   on a limited basis by the European Space Agency for parachute tests in fall 2012 and
   nozzle calibration testing in winter 2013. However, the wind tunnel has no confirmed
   testing requirements beyond this timeframe. Further, Center officials stated that a lack of
   research funding as well as an overall lack of supersonic test programs is primarily
   responsible for declining utilization of the tunnel.

   Langley is placing the Center’s CF4 Tunnel Complex and Unitary Plan Wind Tunnel –
   which cost over $2 million to operate in FY 2011 – in inactive states due to a lack of
   demand for their testing capabilities and duplication with capabilities available at other
   Centers. Langley used the Unitary Plan Wind Tunnel through July 2012 to conduct tests
   for the SLS program and commercial space-flight capabilities testing and plans to
   conduct some other limited tests through January 2014. However, NASA has decided to
   mothball the facility after this testing is complete.

   Lastly, Stennis’s Atmospheric Calibration Equipment Building, which NASA also
   classifies as a wind tunnel, has gone through a period of limited utilization by NASA
   programs for the past several years and Center officials were uncertain how often it will
   be required in the future.


   31
        In October 2003, NASA implemented full cost recovery, which requires NASA installations to charge
        non-NASA users for all costs associated with testing. Prior to 2003, some facilities and operations costs
        were not always charged to non-NASA users.



REPORT NO. IG-13-008                                                                                                9
                                                                                        RESULTS

     Of the six wind tunnels identified, NASA officials plan to: 1) maintain two in an active
     state (Glenn’s Abe Silverstein 10 x 10 Supersonic Wind Tunnel and Stennis’s
     Atmospheric Calibration Equipment Building); 2) mothball one (Langley’s Unitary Plan
     Wind Tunnel); 3) keep one on standby (Ames’s 12-Foot Pressure Wind Tunnel); 4) use
     one for storage (Ames’s 8 x 7-Foot Supersonic Wind Tunnel); and 5) abandon one
     (Langley’s CF4 Tunnel Complex).

     Test Stands. We determined that as many as 14 of the Agency’s 35 test stands are
     currently underutilized or NASA managers could not identify how these facilities will be
     needed to support future missions. NASA spent over $2.2 million maintaining these test
     stands in FY 2011. (See Table 3 for additional details on these test stands.)

     Most of NASA’s test stands are located at Glenn, Marshall, Stennis, and White Sands,
     and they range in height from several to 295 feet. The Agency has used these test stands
     to test propulsion systems for past NASA programs such as Apollo and the Space Shuttle,
     as well as for current programs like the SLS. However, utilization of some of the
     facilities has declined in recent years primarily due to a lack of new large-scale
     propulsion test programs.




10                                                                        REPORT NO. IG-13-008
RESULTS


                                       Table 3. Test Stands without Future Work

      Facility       Facility                        Year Last                           Reason for
      Location        Name           Year Built        Used          O&M Costs          Declining Use           Future Plans

                                                                                     Used in 2012 for
                                                                                     NASA’s Balloon
      Glenn’s     Space
                                                                                     program.
      Plum        Propulsion
                                        1964            2012          $469,756       Propulsion testing      Remain Active
      Brook       Research
                                                                                     is inoperable until
      Station     Facility (B-2)
                                                                                     funding is available
                                                                                     for modifications

                  Research
      Glenn       Combustion            1945            2010           207,220       Loss of funding         Remain Active
                  Laboratory
                                                                                     Cancellation of         Mothball when
                                    Under           Under
      Stennis     A-3                                                     0          Constellation           construction
                                    Construction    Construction
                                                                                     Program                 completed
                                                                                     Used in 2012. No
                                                                                     requirements due to
      Stennis     E-2                   1994            2012            13,944       decreased demand        Remain Active
                                                                                     for propulsion
                                                                                     testing
                                                                                     Used in 2012. No
                                                                                     requirements due to
      Stennis     E-3                   2000            2012            63,439       decreased demand        Remain Active
                                                                                     for propulsion
                                                                                     testing
                                                                                     Used in 2012 by the
                                                                                     Center’s
                                                                                     Technology
                  Structural
                                                                                     Investment
      Marshall    Dynamic Test          1964            2012           738,373                               Remain Active
                                                                                     Program. No
                  Facility
                                                                                     requirements for
                                                                                     full-scale dynamic
                                                                                     testing
                  Propulsion &                                                       Lack of large
      Marshall    Structural            1957           1990s            76,234       propulsion test
                  Test Facility                                                      programs                Remain in Mothball
                  Cold                                                               Poor facility
      Marshall    Calibration           1957           1960s            10,890       condition and lack      Demolish by 2013
                  Test Stand                                                         of programs
                  Advanced                                                           Lack of large
      Marshall    Engine Test           1965            1999           221,570       propulsion test         Mothball by 2014*
                  Facility                                                           programs
                                                                                     Lack of hypergolic
      White
                        302             1964            1995           151,713       engine testing          Remain in Mothball
      Sands
                                                                                     requirements
                                                                                     Lack of hypergolic
      White
                        303             1995            2011            72,887       engine testing          Remain in Mothball
      Sands
                                                                                     requirements
                                                                                     Lack of hypergolic
      White
                        402             1965            1993           182,095       engine testing          Remain in Mothball
      Sands
                                                                                     requirements
                                                                                     Lack of hypergolic
      White             405             1987            2010            87,628       engine testing          Remain in Mothball
      Sands                                                                          requirements
                                                                                     Lack of hypergolic
      White             406             2009            2010            2,843        engine testing          Mothball by 2013.
      Sands                                                                          requirements

    * NASA is conducting a trade study to determine if the Advanced Engine Test Facility can be used for SLS tests.




REPORT NO. IG-13-008                                                                                                              11
                                                                                                              RESULTS

     Marshall manages 4 of the 14 underutilized test stands–the Advanced Engine Test
     Facility (Figure 2), Propulsion & Structural Test Facility, Structural Dynamic Test
                                                  Facility, and Cold Calibration Test Stand.
                                                  All four of the test stands are experiencing
                                                  declining utilization and Center officials were
                                                  unable to identify requirements for their
                                                  future use. Many of Marshall’s test stands
                                                  were built in the late 1950s and early 1960s
                                                  to test Saturn rockets used in the Apollo
                                                  program and later modified to test the Space
                                                  Shuttle’s propulsion systems. However, due
                                                  to their deteriorating conditions and lack of
                                                  new large - scale propulsion system test
                                                  programs, the Agency has not used three of
                                                  the four test stands since at least the 1990s.
                                                  NASA is conducting a trade study to
                                                  determine if the Advanced Engine Test
                                                  Facility can be used for SLS tests.

          Figure 2. Built in 1965, Marshall’s      We found three underutilized test stands at
          Advanced Engine Test Facility was last   Stennis, including the A-3 that is still under
          used in 1999.                            construction, but according to NASA
                                                   officials, will not be needed to support any
     current or planned NASA mission. Accordingly, Stennis will place the facility in
     mothball status once construction is complete in 2013. At White Sands, NASA’s primary
     location for testing hypergolic propellants, five of the Center’s nine test stands are
     experiencing declining utilization, and Center officials could not identify plans for their
     future use.32 We also found that Glenn’s Research Combustion Laboratory is
     underutilized and lacks future uses due to the end of the Agency’s Propulsion and
     Cryogenics Advanced Development project.33 Lastly, Plum Brook’s B-2 test stand was
     used in 2012 for ground tests on NASA’s Balloon Program but the test stand has no
     future plans for propulsion tests and, even if it did, cannot undertake those tests without
     costly modifications.

     Of the 14 underutilized test stands, NASA officials plan to: maintain 5 in an active state
     (Plum Brook’s B-2, Glenn’s Research Combustion Laboratory, Stennis’s E-2, and E-3,
     and Marshall’s Structural Dynamic Test Facility); have placed 5 in mothball status
     (Marshall’s Propulsion and Structural Test Facility and White Sand’s Test Stands 302,
     303, 402 and 405); plan to mothball an additional 3 in the next 2 years (Stennis’s A-3,
     Marshall’s Advanced Engine Test Facility, and White Sand’s Test Stand 406); and plan
     to demolish 1 in 2013 (Marshall’s Cold Calibration Test Stand).

     32
          Hypergolic propellants are liquid fuels used to propel rockets and aircraft systems, including orbiting
          satellites, manned spacecraft, and deep space probes.
     33
          The Propulsion and Cryogenics Advanced Development (PCAD) project developed propulsion system
          technologies for nontoxic or ―green‖ propellant technologies for NASA’s Orion Crew Capsule and Lunar
          Lander.



12                                                                                          REPORT NO. IG-13-008
RESULTS

   Thermal Vacuum Chambers. We determined that at least 4 of the Agency’s 40 large
   thermal vacuum chambers are underutilized or NASA managers could not identify how
                                   these facilities will be needed to support future
                                   missions.34 NASA spent $383,682 to maintain these
                                   facilities in FY 2011. (See Table 4 for additional
                                   details on these vacuum chambers.)

                                                 NASA uses thermal vacuum chambers to test space
                                                 vehicles and related hardware and components in a
                                                 simulated space environment. The chambers create a
                                                 vacuum through a series of pumps, while liquid
                                                 nitrogen is pumped into the chambers to simulate the
                                                 thermal environment of space. NASA has 40 large
                                                 chambers located at Marshall, Glenn, Langley,
                                                 Johnson, the Jet Propulsion Laboratory (JPL),
                                                 Goddard, Kennedy, and Plum Brook Station.
                                                 NASA’s large thermal vacuum chambers range in
                                                 size from 8 feet to the world’s largest chamber, Plum
        Figure 3. Plum Brook’s K-Site.Brook’s Space Power Facility, which is 100 feet in
                                      diameter and 122 feet high. Among the materials that
   have been tested in the chambers are the mirrors for the James Webb Space Telescope
   and tools and hardware used in spacewalks outside of the International Space Station.

   The Agency’s utilization of several of its chambers has declined in recent years due to the
   lack of NASA program requirements or the deteriorating conditions of the facilities. For
   example, Glenn’s Vacuum Facility 11 and Plum Brook’s Cryogenic Propellant Tank
   Facility (K-site) are in poor condition and would require expensive renovation to be
   usable (see Figure 3). Johnson’s two chambers – Energy Systems Test Area 20 Foot
   Chamber and Energy Systems Test Area Z Chamber – have not been used since the
   1990’s and Johnson officials were uncertain of any future uses for thermal vacuum
   testing.

   Of the four underutilized vacuum chambers, NASA officials plan to maintain two in an
   active state (Glenn’s Vacuum Facility-11 and Johnson’s Energy Systems Test Area 20
   Foot Chamber) and demolish one (Glenn’s K-site). Johnson’s Energy Systems Test Area
   Z Chamber has never been used, has been inactive since 2000, and therefore Center
   officials plan to demolish it in 2013.




   34
        NASA defines large thermal vacuum chambers as chambers capable of handling test articles
        approximately 3 cubic meters or larger, are equal to or greater than 10 feet in diameter, and 10 feet in
        length or height.



REPORT NO. IG-13-008                                                                                               13
                                                                                                                               RESULTS

                                 Table 4. Thermal Vacuum Chambers without Future Work
                                                         Year
             Facility                          Year      Last        O&M
             Location      Facility Name       Built     Used        Costs       Reason for Declining Use        Future Plans
                           Vacuum
                                               1942      2003      $315,865*   Poor facility condition         Remain Active
            Glenn          Facility-11
                           K-Site
                                               1958      2004          0       Poor facility condition         Demolish by 2014
            Glenn          Cryogenic
                           Energy
                                                                               Reduced requirement for Lunar
                           Systems Test
                                               1964     1990s       67,817*    and/or Martian surface          Remain Active
                           Area 20 Foot
                                                                               simulation testing
            Johnson        Chamber
                           Energy
                                                                               Reduced requirement for Lunar
                           Systems Test                 Never
                                               1964                    0       and/or Martian surface          Demolish by 2013
                           Area Z                       used
                                                                               simulation testing
            Johnson        Chamber

           *Operations and Maintenance costs are for the entire building.


     Airfields. NASA maintains airfields at Ames, Kennedy, and Wallops. We found the
     airfields at Ames (Moffett Federal Airfield) and Kennedy (Shuttle Landing Facility) are
     underutilized and NASA managers could not identify future mission-related uses for
     these facilities even though the Agency spent $7.8 million to maintain them in FY 2011.
     (See Table 5 for additional details on these airfields.)

     Moffett (see Figure 4) almost exclusively supports non-NASA activities such as Air
     National Guard operations and other lease operations such as H211, LLC (corporate jets),
                                                         and Airship Ventures, Inc. (Zeppelin
                                                         tours). While the airfield
                                                         periodically supports the Sensor
                                                         Integrated Environment Remote
                                                         Research Aircraft (SIERRA)
                                                         Unmanned Aircraft System and
                                                         Alpha Jet Atmospheric eXperiment
                                                         (AJAX), NASA officials said those
                                                         missions are limited and could be
                                                         supported by nearby airfields.35

                                                           The Space Shuttle Orbiters landed at
                                                           Kennedy’s Shuttle Landing Facility
       Figure 4. Ames’s Moffett Federal Air Field.         and the Agency last used the runway
                                                           in September 2012 when Space
     Shuttle Endeavour was ferried to its final home at the California Science Center.
     Kennedy officials stated that while the landing strip periodically supports deliveries of
     space hardware for the DoD, National Reconnaissance Office, and other government
     agencies, NASA has no plans to use the airfield for its missions. In June 2012, NASA’s
     Mission Support Council recommended that the Agency divest of the Shuttle Landing
     Facility. However, Kennedy is considering options for other potential uses.

     35
          NASA’s AJAX project conducts flights to measure ozone and greenhouse gases over California and
          Nevada. The SIERRA aircraft is an unmanned aircraft NASA utilizes to conduct remote sensing and
          atmospheric sampling missions in inaccessible regions.



14                                                                                                       REPORT NO. IG-13-008
RESULTS



                                    Table 5. Airfields without Future Work
                                            Year
           Facility     Facility   Year     Last       O&M           Reason for
           Location      Name      Built    Used       Costs        Declining Use         Future Plans
                      Moffett
                                                                  Minimal NASA      Working with GSA to find
          Ames        Federal      1944      2012    $6,429,935
                                                                  program use       alternative uses
                      Airfield
                      Shuttle                                     End of Space
          Kennedy                  1976      2012    1,361,740                      Remain Active
                      Runway                                      Shuttle Program


   Launch Infrastructure. We determined that as many as seven of NASA’s launch-
   related facilities at Kennedy are underutilized or as of November 2012 Agency managers
   could not identify future mission-related uses for these facilities. In FY 2011, NASA
   spent approximately $29 million maintaining these facilities. (See Table 6 for additional
   details concerning these facilities.)

   Kennedy has more than 100 facilities that NASA uses to process, launch, and recover
   both manned and unmanned spacecraft. The underutilized facilities we identified include
   Solid Rocket Booster Recovery Facilities, a Parachute Refurbishment Facility, a Launch
   Pad (see Figure 5), and one of the Orbiter Processing Facilities.

   NASA’s need for this infrastructure ceased only in the past year with the end of the Space
   Shuttle Program; however, timely decisions on the future of these facilities are vital in
   light of the amount of time the Agency had to plan for the Shuttle Program’s end and the
                                                     high costs associated with continuing
                                                     to maintain the facilities. Kennedy is
                                                     seeking commercial companies to
                                                     lease several of these structures
                                                     including the Orbiter Processing
                                                     Facilities and the Launch Pad. To
                                                     date, Kennedy has entered into a lease
                                                     arrangement through Space Florida for
                                                     Boeing to use one of the two Orbiter
                                                     Processing Facilities to manufacture
                                                     and assemble its Crew Space
                                                     Transportation CST-100 spacecraft.36
                                                     For the remaining facilities, if a tenant
                                                     is not found by the time Space Shuttle
     Figure 5. Kennedy’s Launch Pad 39A.
                                                     Program Transition and Retirement
   funding expires in March 2013, NASA plans to mothball, abandon, or demolish them.




   36
        Boeing’s CST-100 (Crew Space Transportation) crew capsule is a spacecraft design proposed by Boeing
        in collaboration with Bigelow Aerospace as their entry for NASA’s Commercial Crew Development
        (CCDev) program.



REPORT NO. IG-13-008                                                                                           15
                                                                                                         RESULTS


                            Table 6. Launch Infrastructure without Future Work
                                                 Year
     Facility                            Year    Last     O&M
     Location       Facility Name        Built   Used     Costs      Reason for Declining Use    Future Plans
                Parachute                                            End of Space Shuttle        Demolish by
     Kennedy                             1964    2011   $ 544,140
                Refurbishment Facility                               Program                     2014
                Orbiter Processing                                   End of Space Shuttle        Abandon by
     Kennedy                             1977    2012   5,482,830
                Facility                                             Program                     2013
                First Wash Building                                  Requirements in flux for
     Kennedy    (Solid Rocket            1979    2011    245,275     retrieval of Solid Rocket   Mothball by
                Boosters)                                            Boosters for SLS            2013
                                                                     Requirements in flux for
                Solid Rocket Booster
     Kennedy                             1979    2011    131,655     retrieval of Solid Rocket   Undetermined
                Recovery Slip
                                                                     Boosters for SLS
                                                                     End of Space Shuttle        Demolish by
     Kennedy    Hangar M Annex           1963    2012    220,022
                                                                     Program                     2013
                                                                     Requirements in flux for
     Kennedy    Hangar S                 1958    2011   1,031,725    retrieval of Solid Rocket   Demolish by
                                                                     Boosters for SLS            2013
                                                                     End of Space Shuttle        Mothball by
     Kennedy    Pad 39A                  1966    2011   21,393,926
                                                                     Program                     2012




16                                                                                      REPORT NO. IG-13-008
RESULTS


Interrelated Challenges Hinder NASA’s Ability to Reduce its
  Infrastructure

   Through discussions with NASA officials and analysis of previous studies of the
   Agency’s infrastructure problems, we identified four interrelated and longstanding
   challenges that have hindered NASA’s ability to reduce its infrastructure: 1) fluctuating
   and uncertain strategic requirements; 2) Agency culture and business practices; 3)
   political pressure; and 4) inadequate funding (see Figure 6).

   Figure 6. NASA’s Challenges to Reducing Infrastructure


                                             Fluctuating
                                            Requirements




                                           Infrastructure        Agency
                         Inadequate                            Culture and
                           Funding           Reduction          Business
                                             Challenges         Practices




                                              Political
                                              Pressure




   Fluctuating and Uncertain Requirements. Frequent changes in the direction of the
   nation’s space policy by Congress, the President, and the Agency have hindered the
   ability of NASA managers to determine which facilities will be needed to support
   NASA’s mission needs. For example, NASA’s Human Exploration and Operations
   mission has transitioned from the Space Shuttle Program, to the Constellation Program,
   to the new SLS Program in just 6 years. NASA’s other missions have also experienced
   significant flux, with the Agency’s role in aeronautics research altered by declining
   budgets that have resulted in NASA conducting more low-level, fundamental research
   and less full-scale testing of new systems and concepts. This in turn has reduced the
   Aeronautics Research Mission Directorate’s demand for testing facilities such as wind
   tunnels. Similarly, the Science Mission Directorate has had to slow the pace at which it
   initiates new and smaller missions as cost increases experienced by large ―flagship‖
   missions such as the James Webb Space Telescope have absorbed a greater share of the
   Directorate’s budget. Because decisions about which facilities the Agency needs are
   heavily dependent on the missions it is asked to perform, changes in direction complicate
   the task of managing NASA’s infrastructure. In the absence of firm requirements
   stemming from a clear direction, NASA Programs and Centers often resort to a


REPORT NO. IG-13-008                                                                           17
                                                                                                           RESULTS

     ―wait-and-see‖ or ―keep it in case you need it‖ approach to facilities management.

                                                            The Constellation Program is an
                                                            example of problematic and
                                                            expensive infrastructure issues
                                                            caused by fluctuating mission
                                                            requirements. Proposed in 2004 by
                                                            President George W. Bush to enable
                                                            human exploration beyond low
                                                            Earth orbit, the major complements
                                                            of the Constellation Program were
                                                            the Ares I and Ares V launch
                                                            vehicles, the Orion Multipurpose
                                                            Crew Vehicle, and the Altair Lunar
       Figure 7. A-3 Test Stand at Stennis.                 Lander. To power the upper stage of
                                                            the Ares I and the Earth departure
     stage of the Ares V, NASA developed the J-2X engine. To test the J-2X, NASA required
     a test stand that could support the engine for long duration run times at vacuum pressure
     simulating the environmental conditions that it would encounter during a high altitude
     ignition in space. At the time, NASA had no other test stands capable of satisfying these
     testing requirements. Accordingly, in late 2007 the Agency began to build a test stand at
     Stennis known as the A-3 (see Figure 7) for an estimated $163 to $185 million. Shortly
     thereafter, NASA’s requirement for a high-altitude ignition capability for the J-2X engine
     began to change and completely ceased with the decision to cancel the Constellation
     Program in February 2010. The SLS vehicles currently under development will not
     utilize high-altitude ignition engines and therefore several of NASA’s existing test stands
     can be used to test their engines. Accordingly, when construction on the A-3 test stand is
     completed in late 2013, NASA plans to place the facility in a mothball status.37 NASA
     estimates the total cost of the A-3 test stand at approximately $349 million. In addition,
     the Agency will expend an additional $1.5 million to $1.75 million annually to maintain
     the test stand in its mothball state.




     37
          In the NASA Authorization Act of 2010, Congress mandated that NASA complete construction of the
          A-3 even though it had no use for the test stand given the cancellation of the Constellation Program.



18                                                                                        REPORT NO. IG-13-008
RESULTS

                                                         NASA’s retention of the booster
                                                         recovery infrastructure at Kennedy
                                                         (see Figure 8) is another example of
                                                         the challenges, changes, and
                                                         uncertainty related to the Agency’s
                                                         mission pose to infrastructure
                                                         management. In the past, NASA
                                                         utilized these facilities to refurbish
                                                         the solid rocket boosters recovered
                                                         after each Space Shuttle launch.38
                                                         The booster recovery infrastructure
                                                         is composed of a slip at which the
     Figure 8. Kennedy’s Booster Recovery Slip.          recovery ships docked and
                                                         specialized hangers and other
   buildings that were used to disassemble, clean, and refurbish the boosters. Although
   NASA plans to use solid rocket boosters for the first two SLS test flights scheduled for
   2017 and 2021, it does not plan to recover the boosters after those flights. Moreover, the
   Agency has not decided whether it will use solid or liquid propellant boosters for later
   SLS flights. If the Agency ultimately opts for liquid propellant boosters, it will have no
   need for the booster recovery infrastructure at Kennedy, as the liquid propellant boosters
   will not be recovered for refurbishing. In addition, NASA has not determined whether
   Kennedy will continue to refurbish solid rocket boosters if that type of propellant is
   selected. NASA is not expected to make its booster decision until after 2015, and
   therefore plans to continue to maintain most of the booster recovery infrastructure until
   that time at a cost of nearly $2.6 million per year.

   Agency Culture and Business Practices. Historically, NASA’s culture has been one of
   decentralized facilities management and the Centers competing for work from the
   Agency’s major programs. Both of these factors have contributed to a tendency for
   NASA Centers to build up capabilities with little regard for whether they exist elsewhere
   at the Agency and to maintain the associated facilities to better position themselves to
   compete for work.

   NASA’s decentralized governance structure has been part of the Agency’s culture since
   its inception. NASA was formed in 1958 by consolidating three separate government
   research and development facilities that served as the foundation for the Agency’s current
   Center-based governance structure.39 At times, NASA managers have intentionally
   distributed program work across all of NASA’s Centers. For example, in 2006 the
   NASA Administrator directed the Agency to maintain 10 ―healthy‖ Centers by

   38
        Following each Space Shuttle launch, NASA crews in two retrieval ships – Freedom Star and Liberty
        Star – would retrieve the Shuttle’s two solid rocket boosters from a splashdown point nearly 140 miles
        off the coast of Florida, and tug the boosters back to Kennedy where they were reprocessed for future
        missions.
   39
        When it began operations on October 1, 1958, NASA absorbed the 46-year-old National Advisory
        Committee for Aeronautics, including its 8,000 employees and 3 major research laboratories – Langley
        Aeronautical Laboratory, Ames Aeronautical Laboratory, and Lewis Flight Propulsion Laboratory (since
        renamed Glenn Research Center).



REPORT NO. IG-13-008                                                                                             19
                                                                                                     RESULTS

     distributing Constellation Program-related work across the Agency.

     One consequence of NASA’s Center-based structure is a fragmented process for real
     property management. Specifically, NASA policy designates Center Directors as the
     ―owners‖ of all real property associated with their Centers and assigns them the
     responsibility of assessing real property needs and determining whether facilities are
     appropriate for missions in size and type.40 This, in turn, has blurred the lines of
     authority and limited NASA’s ability to assess infrastructure needs from an overarching
     Agency perspective.

     As previously mentioned, a major component of the Agency’s decentralized management
     structure has been competition among Centers. According to several Agency officials,
     NASA Centers actively compete for work from the Agency’s various programs. This in
     turn provides incentives for the Centers to maintain or grow their infrastructure
     capabilities. NASA officials stated that Centers maintain assets such as wind tunnels and
     test stands in a ―ready-to-produce‖ state to remain competitive for future work. They
     further explained that disincentives exist to placing facilities in mothball or standby states
     because the costs and time associated with bringing facilities back on line may result in
     NASA work going elsewhere.

     These factors have contributed to a tendency by the Centers to build or preserve facilities
     that duplicate capabilities available elsewhere in the Agency or that lack an identified
     mission use. For example, NASA currently has 36 wind tunnels at 5 different Centers,
     35 rocket test stands at 6 different sites, and 40 large thermal vacuum chambers at
     7 different locations. While not all of these facilities are redundant and some redundancy
     may be desirable to avoid single point failures or to accommodate heavy workloads,
     several recent studies have cited specific examples of capabilities overlap and potential
     duplication among NASA facilities.

     For example, a 2012 NASA study found that the greatest area of capabilities overlap
     within NASA’s test stand portfolio is between Marshall’s East Test Area (Test Stands
     115, 116, and 500) and Stennis’s E-Complex (E-1, E-2, and E-3) and between Glenn’s
     Altitude Combustion Stand and White Sands Test Stand 401.41 The RAND Corporation
     performed reviews of NASA’s wind tunnel facilities in 2004 and 2009 and the 2009
     report identified two wind tunnels at Langley that it considered redundant to existing
     facilities at Ames and other facilities at Langley. The 2004 report also observed that a
     few of NASA’s wind tunnels are redundant when considering the technical capabilities of
     the larger set of facilities maintained by commercial entities and DoD. Finally, NASA’s
     Space Environment Testing Asset Group conducted a 2011 review examining NASA’s
     large thermal vacuum chambers and noted that duplication appeared to be the most
     prevalent in the Electric Propulsion test area. The report identified 12 chambers at Glenn,
     the Jet Propulsion Laboratory, Marshall, and Johnson that it considered potentially
     duplicative.

     40
          NASA Procedural Requirements (NPR) 8800.15B, ―Real Estate Management Program,‖ June 21, 2010.
     41
          NASA Rocket Propulsion Test Program, ―NASA Rocket Test Facility Right Sizing Study,‖ February 1,
          2012.



20                                                                                   REPORT NO. IG-13-008
RESULTS

   Another business practice that has contributed to Centers building up and maintaining
   capabilities is the way in which the Agency funds facilities’ operations and maintenance
   costs. Specifically, the majority of these costs are paid through the Centers’ Management
   and Operations accounts rather than the programs that utilize the facilities. This
   arrangement provides little incentive for programs to ensure the Agency is maintaining
   only those facilities needed to meet mission requirements. This issue also arises when
   programs end and the facilities built or modified for a particular use are left to the Centers
   to maintain. For example, Marshall has had to absorb continuing operations and
   maintenance costs for numerous test stands built by the Apollo, Space Shuttle, and other
   programs. Two of these test stands – the Cold Calibration Test Stand and Advanced
   Engine Test Facility–have not been used for decades. Despite the lack of NASA program
   requirements for their use, Marshall maintained the facilities in an active state for years
   and continued to fund their operation and maintenance costs. Only in the past few years
   has the Center taken steps to dispose of the Cold Calibration Test Stand. Marshall plans
   to place the Advanced Engine Test Facility in a mothball status in 2014.

   Political Pressure. The political context in which NASA makes decisions about
   individual facilities also creates pressure and disincentives for the Agency to reduce its
                                                        infrastructure. While these pressures
                                                        are not unique to NASA, they
                                                        nonetheless make it more difficult for
                                                        the Agency to manage its aging and
                                                        expansive infrastructure. During our
                                                        review, we noted several examples in
                                                        which political officials intervened in
                                                        NASA’s plans to close down or
                                                        consolidate facilities.

                                                       For example, in January 2011 NASA’s
                                                       Mission Support Council announced its
                                                       decision to close the Atmospheric
                                                       Reentry Materials and Structures
    Figure 9. Johnson’s Arc Jet Facility.              Evaluation Facility (Arc Jet) at Johnson
                                                       and consolidate those operations at
   Ames, citing cost savings and Ames greater ability to support the operations (see
   Figure 9). 42 Over a year later in February 2012, 30 members of Congress, almost of all
   of whom represented Texas, sent a letter to the NASA Administrator requesting that the
   Agency suspend any action to close the facility until they had an opportunity to meet with
   NASA officials and review the situation. NASA officials met with the Members in April
   2012 and attempted to assure them that consolidating Arc Jet facilities at Ames would not
   result in significant testing downtime or a reduction in Agency capability. However, the
   Congressional members were not convinced and in a subsequent letter strongly urged the
   NASA Administrator to halt any action to dismantle the Johnson Arc Jet until it could be
   determined that consolidating the facilities would not adversely impact testing of the

   42
        NASA uses Arc Jet facilities to develop and certify thermal protection materials and systems for re-entry
        spacecraft for both human and robotic missions.



REPORT NO. IG-13-008                                                                                                21
                                                                                         RESULTS

     Orion Multipurpose Crew Vehicle. As of the date of our report, the Agency planned to
     consolidate Arc Jet capabilities at Ames through an incremental approach that will
     maintain testing capability at Johnson through 2013 or until the Ames Arc Jet is
     completely operational.

     Another example of political intervention in NASA’s facilities management is the A-3
     test stand. As previously discussed, NASA began construction of the A-3 in 2007 to test
     the J2-X engine, a key component of the rockets intended for the Constellation Program.
     When that program was cancelled in 2010, construction on the A-3 was nearly 65 percent
     complete and NASA had expended $292 million. At the time, the Agency weighed
     several options ranging from completing construction and activating the test stand to
     completing only the awarded contracts with no activation. However, before the Agency
     could make a decision regarding the best option, members of Congress inserted language
     in the NASA Authorization Act of 2010 directing the Agency to complete construction of
     the test stand. Since then NASA has spent an additional $57 million on the A-3 and
     expects to complete construction by October 2013, at which time it will place the facility
     in mothball status.

     Finally, in April 2012 the NASA Administrator notified Congress that NASA no longer
     needed the airfield and other associated property, such as Hanger One at Ames’s Moffett
     Field, and that the Agency was working with the GSA to find alternative uses for the
     facilities.43 This action generated significant opposition from Congress, community
     organizations, and local officials who urged NASA to retain the facilities even though the
     Agency had no current or future mission use for them.

     Inadequate Funding. Demolishing or disposing of facilities that NASA no longer needs
     to fulfill its mission is not without cost. In many instances, NASA must conduct
     environmental remediation before it can dispose of a facility. For example, in April 2009
     NASA informed Congress that it planned to dispose of the Agency’s Santa Susana Field
     Laboratory in Ventura County, California. However, decades-long testing of rocket
     engines at Santa Susana caused significant environmental contamination at the site.
     NASA has estimated that the environmental cleanup at Santa Susana will cost between
     $25 and $209 million and will consume most of the Agency’s environmental remediation
     funding for the next several years, possibly affecting the Agency’s ability to fund other
     demolition or cleanup projects. Moreover, the amount of money dedicated to demolition
     activities is not likely to grow because of constrained Federal budgets. In addition, the
     Office of Management and Budget reduced NASA’s proposed recapitalization budget for
     FY 2013 through FY 2017 by approximately 60 percent from $1.7 billion to
     $750 million. As of the date of our report, NASA had a list of approximately
     108 projects for which it needs funds to demolish.




     43
          40 U.S.C. 524, ―Duties of Executive Agencies.‖



22                                                                        REPORT NO. IG-13-008
RESULTS


NASA Has Recently Taken Positive Steps Toward Managing its
 Unneeded Infrastructure but Sustained Leadership will be
 Required to Overcome Longstanding Challenges

   NASA has recently launched several promising initiatives to manage its infrastructure,
   including: 1) organizational changes to strengthen central authority over infrastructure
   decisions; 2) development of an Agency Facility Strategy and Integrated Agency-wide
   Real Property Master Plan; 3) development of a Corporate Portfolio Management
   Process; 4) improvements in managing its real property data; and 5) development of a
   strategic technical capabilities assessment. While we view these initiatives as positive
   steps, most are in early stages of development and it remains unclear how successful they
   will be. As noted above, NASA has attempted infrastructure reduction initiatives in the
   past with limited success. Accordingly, without strong and sustained leadership to see
   these efforts through, incorporate them into Agency policy, and make difficult decisions
   about what facilities the Agency will need going forward, NASA will continue to
   struggle with its excess infrastructure challenge.

   Organizational Changes. Following a 2009 internal study, NASA recognized the risks
   of failing to right size its aging infrastructure and began to address facilities governance –
   an issue Agency managers believed was a major impediment to managing its real
   property. Since that time, NASA has implemented several organizational changes to
   centralize its real property decision making, including the establishment of an Agency
   Council to oversee infrastructure decisions and creation of a Directorate-level position to
   manage and provide additional authority over infrastructure decisions. NASA’s new
   Council – the Facilities Program Board – was developed to bring Centers and program
   stakeholders together to make decisions about how to best invest infrastructure funds,
   rather than having Programs and Centers separately making facilities decisions.44 In an
   effort to further streamline and improve the Council’s decision making, the Agency
   reorganized the membership in 2011 to only six core members.45 Center personnel are
   consulted on Council decisions as necessary, but are not final decision makers. In
   addition, NASA elevated its mission support functions and facilities decisions to the
   Directorate level in 2010 to align with its other Mission Directorates. Since assuming the
   role, the Associate Administrator for Mission Support has taken steps to centralize
   NASA’s real property decision making, including the development of an Agency-wide
   Master Plan and a corporate framework for channeling facilities decision making.

   We view these changes as positive first steps to addressing the challenges resulting from
   the Agency’s decentralized governance structure and establishing the required leadership
   and foundation for identifying, vetting, and following through with difficult decisions
   about the facilities to retain or eliminate.


   44
        In 2010, the Facilities Program Board dissolved and its functions were taken over by the Mission Support
        Council.
   45
        The Mission Support Council is chaired by the Associate Deputy Administrator. Core members include
        the Associate Administrator, Associate Administrator for Mission Support, Chief Financial Officer,
        Chief Information Officer, and the Chief, Safety and Mission Assurance.



REPORT NO. IG-13-008                                                                                               23
                                                                                                            RESULTS

     Facilities Strategy and Integrated Agency-wide Master Planning. NASA adopted a
     Facility Strategy in 2009 that established goals for consolidating and renewing the
     majority of its infrastructure by 2055. The strategy calls for consolidation of NASA’s
     technical and nontechnical facilities to achieve efficiencies and sets goals for a 10 percent
     reduction in current replacement value of the Agency’s infrastructure by 2020 and
     15 percent by 2050. To implement the Facility Strategy, the Associate Administrator
     created NASA’s first real property Agency-wide integrated master plan to better
     coordinate facilities resource needs across the Agency and to link those needs with
     projected funding. In 2010, Centers updated their Master Plans by defining specific
     improvement plans for each field installation. The integrated Agency-wide master plan
     incorporated individual Center master plans into one document, which serves as the
     Agency’s roadmap for future development and redevelopment of Agency real property
     and provides a framework for conducting advanced facilities planning.

     We also view NASA’s Facility Strategy and master planning efforts as positive steps
     towards reducing and better managing NASA’s diverse real property assets. However, in
     prior audit work we found deficiencies in individual Center’s master plans that NASA is
     using to develop the integrated Agency plan. These deficiencies may limit the Plan’s
     usefulness for making strategic real property decisions.46 In our December 2011 report,
     we made a series of recommendations that the Agency is implementing to help improve
     future iterations of the Agency-wide Master Plan.

     Corporate Portfolio Management. Another initiative developed by the Associate
     Administrator for Mission Support is Corporate Portfolio Management (CPM) – an
     analytical framework designed to assist managers in identifying, grouping, and evaluating
     the Agency’s capabilities (defined as people, facilities, and other direct costs) into a set of
     portfolios to manage infrastructure needs. NASA originally planned to have CPM fully
     implemented by spring 2012; however, the effort is behind schedule. Mission Support
     Directorate officials explained that the delay was due to their decision to pilot the process
     by first analyzing possible consolidations of airfields, thermal vacuum chambers, test
     stands, and wind tunnels before examining other Agency assets.47




     46
          NASA OIG, ―NASA’s Infrastructure and Facilities: An Assessment of the Agency’s Real Property
          Master Planning‖ (IG-12-008, December 19, 2011). We found that NASA is developing its initial
          master plan based on Center master plans that: (1) were developed using funding assumptions that are no
          longer realistic; and (2) are missing essential information. In addition, 5 of the 10 Centers did not
          develop master plans to reduce their real property footprint in accordance with Agency goals.
     47
          The pilot process is known throughout the Agency as the NASA Technical Capabilities Forum Phase II.
          The Agency held two capability forums (2010 and 2011) in order to determine the size of all Center
          technical capabilities and to identify capabilities with funding gaps. Officials decided to continue the
          work done at these forums by using the data to pilot the larger CPM process.



24                                                                                         REPORT NO. IG-13-008
RESULTS

   We reviewed the CPM pilot and found that while more analytical and transparent than

                                            Table 7. CPM Pilot Process Results
      Technical
                                                                                                          FY 2011 O&M
      Capability        Number of Facilities Reviewed             Number of Facilities
                                                                                                         Costs ($)Millions
        Portfolio                                             Recommended for Divestiture
    Thermal
    Vacuum                            24                                     4                                 $10.2e
    Chambers a
    Wind Tunnels
                                      29                                     1                                 0.03
    (b)
    Airfields (c)                     24                                     2                                 11.5
    Rocket Test
                                      24                                     0                                   0
    Stands (d)
    Total                             101                                    7                                 $21.7
    (a) Includes chambers with some evidence for consolidation or disposal based on the vacuum chamber study
    (b) Includes all identified wind tunnels excluding the Arc Jets
    (c) Includes all identified NASA airfield assets
    (d) Includes all test stands in the Rocket Propulsion Test study
    (e) Includes O&M cost for the entire facility in which the thermal vacuum resides


   past efforts, the process may still fall short of overcoming the cultural and fiscal
   challenges highlighted in this report. For example, as of July 2012 Mission Support
   Directorate officials evaluated 101 capabilities in each of the 4 portfolios during the CPM
   pilot process (see Table 7). However, the Associate Administrator for the Mission
   Support Directorate recommended for divestiture and the Mission Support Council
   approved only 7 of the 101 facilities.48

   Although further refinement of CPM will continue, we are concerned that only 7 of 101
   facilities were recommended for divestiture even though, according to Mission Support
   Directorate officials, the pilot process was designed to make recommendations on
   facilities considered the ―low hanging fruit,‖ including facilities that, at the time of
   evaluation, were mothballed or not utilized and that had little or no personnel assigned to
   them. As discussed previously, we determined that as many as 14 of the 35 test stands
   reviewed during this audit were underutilized and lacked future NASA mission
   requirements. However, Mission Support Directorate officials made no
   recommendations to divest any rocket test stands in the pilot process.49 They told us
   these facilities were not included because more information and analysis was needed in
   light of the high environmental cleanup costs associated with divesting of test stands. We
   also find it instructive that despite the poor condition and lack of use of the facilities that
   were recommended for divestiture, the host Centers did not always concur with the
   recommendations, stating instead that there may be future mission use for the facilities.

   Real Property Data. In order for CPM and the other initiatives the Agency is
   developing to be reliable and effective, NASA needs accurate data on its real property
   assets. To provide this data, NASA primarily relies on the Agency’s Real Property
   Management System (RPMS). However, in conjunction with CPM, the Agency is also
   48
        Divestiture is defined as the transfer, removal, or abandoning in place of an asset.
   49
        Marshall’s Cold Calibration Test Stand, which is one of the 14 test stands we questioned, was selected
        for demolition prior to the pilot process.



REPORT NO. IG-13-008                                                                                                         25
                                                                                                            RESULTS

     developing the NASA Technical Capabilities Database (NTCD) to identify and track all
     Center technical capabilities and their associated resources (supply) and map them to
     projected mission requirements (demand) across the Agency. NASA’s Mission Support
     Directorate designed NTCD to identify unneeded technical capabilities by identifying
     possible funding gaps when it costs more to maintain a capability at a ready-to-produce
     state than what programs or customers have funded.50 Mission Support Directorate
     officials expect that by analyzing these funding gaps and capabilities that have few or no
     programs and customers providing funding, planners can identify which capabilities and
     the associated facilities may not be utilized or needed.

     While the creation of NTCD should help the Agency better analyze its infrastructure
     needs, we found the data contained within the NTCD to be inconsistent and incomplete.
     For example, the NTCD’s gap analysis did not identify any of the wind tunnels or the test
     stands at Ames and Stennis that we identified during this review. One reason for this is
     that NTCD links multiple facilities into a single technical capability. In particular, the
     NTCD links Ames’s 11 Foot Transonic Wind Tunnel, 9x7 Foot Supersonic Wind Tunnel,
     and 8x7 Foot Supersonic Wind Tunnel into the same technical category. As such, the
     database was not able to identify that the 8x7 tunnel was not being utilized and has no
     future uses because the overall capability has enough program dollars committed to it
     from other Ames tunnels that individual tunnels do not appear as a funding gap. By
     allocating program and customer funding to the whole capability rather than individual
     facilities, the database can mask funding gaps and overlook facilities that are
     underutilized.

     Finally, our previous audit work identified numerous data quality issues with NASA’s
     RPMS, which was designed to capture key information such as utilization, mission
     dependency, and condition of facilities. We deemed this data unreliable because the
     Centers used inadequate processes to gather and update it.51 We made a series of
     recommendations for corrective action in our August 2011 audit report, including that the
     Agency establish a process for Centers to accurately capture utilization rates for facilities
     and improve the guidance to ensure mission dependency and condition data is
     consistently and accurately inputted into RPMS. In addition, during the review we found
     the Centers did not maintain adequate records of facilities past or future planned usage
     making it difficult to determine their utilization accurately.

     Because our previous work has shown RPMS data to be unreliable and our current work
     uncovered issues with NTCD, we believe the Agency needs to take additional measures
     to independently validate and analyze its real property data. Other organizations have
     created multidisciplinary review teams or utilized the services of an audit organization to
     ensure data accuracy. We understand that incorporating validation processes either
     internally or externally to NASA creates another level of review, is costly, and can extend
     the time it takes to implement decisions. However, the lack of accurate and complete

     50
          Ready-to-Produce captures the minimal resources (i.e., workforce and other direct costs) required to
          sustain a capability element.
     51
          NASA OIG, ―NASA Infrastructure and Facilities: Assessment of Data Used to Manage Real Property
          Assets‖ (IG-11-024, August 4, 2011).



26                                                                                         REPORT NO. IG-13-008
RESULTS

   data hampers the Agency’s ability to identify whether key facilities are utilized and
   certify whether technical capabilities are available and appropriately sized to support
   current and future missions.

   Comprehensive Technical Capabilities Assessment. In addition to the initiatives
   discussed previously, in July 2012 NASA began developing a process for a
   comprehensive technical capability assessment that will identify and evaluate Center
   capabilities against current and future Agency needs. 52 This assessment is being
   developed and conducted by the Agency’s Associate Administrator – a higher
   organizational level than the Associate Administrator for Mission Support’s development
   and implementation of CPM. In addition, while this process is similar to CPM in that it
   assesses technical capabilities, it differs in that it is designed so that each Center
   identifies its core capabilities followed by a process by which the Centers’ assessments
   are evaluated and ranked against the near term needs of the Mission Directorates and the
   future needs of the Agency. According to the Associate Administrator, the process will
   work by scoring and ranking Centers’ capabilities at the Center, Mission Directorate, and
   Agency levels. Based on those rankings, Agency officials will determine if certain
   capabilities require further evaluation. For example, if a Center capability such as
   Launch Operations scores a low ranking on Center, Mission Directorate, and Agency
   level assessments, Agency officials may determine whether it warrants further review to
   be considered for consolidation or excessing. In an effort to integrate and build upon
   other related initiatives, any capabilities identified for further review would be evaluated
   through the CPM process described above. To date, the Associate Administrator has
   requested the Centers to identify and rank their capabilities in order of importance.
   Officials expect to have the Center capabilities identified and ranked by December 2012
   and to have the entire process implemented in early 2013.

   We are encouraged by the development and implementation of a process to identify and
   prioritize the Centers’ capabilities and by the Agency’s efforts to address its culture of
   competition between Centers. However, we question whether the process can overcome
   the influence outside stakeholders historically have had on Agency infrastructure
   decisions.

                                                                                              Conclusion

   NASA officials readily acknowledge that the Agency has more infrastructure than it
   needs to carry out current and planned missions. To its credit, NASA has a series of
   initiatives underway that, in our judgment, are positive steps towards rightsizing its real
   property footprint. The development of an Agency Facilities Strategy and Integrated
   Master Plan, capability assessments, and organizational changes to centralize decision
   authority over infrastructure matters should better position the Agency to strategically
   assess infrastructure needs, manage underutilized property, and divest itself of duplicative
   or unneeded facilities.

   52
        NASA defines a capability as the necessary infrastructure, equipment, workforce, and other direct costs
        required to accomplish a given mission requirement.



REPORT NO. IG-13-008                                                                                              27
                                                                                           RESULTS

     However, many of these efforts are in the early stages and their ultimate effect on the
     Agency’s ability to reduce its real property portfolio remains unclear.

     Given the disparity between the Agency’s infrastructure, its mission-related needs, and
     constrained budgets, it is imperative that NASA move forward aggressively with its
     infrastructure reduction efforts. To achieve such success, the Agency will need to move
     away from its longstanding ―keep it in case you need it‖ approach to managing its
     infrastructure and overcome historical incentives for the Centers to build up and maintain
     unneeded capabilities. In addition, NASA officials will need to temper the concerns of
     political leaders about the impacts of eliminating or consolidating facilities will have on
     the Centers’ missions and their workforces and on local communities. Moreover, abrupt
     changes in the strategic direction of the Nation’s space policy by Congress, the President,
     and the Agency will continue to add an element of uncertainty regarding the missions the
     Agency will pursue and therefore the facilities it will need to achieve those missions.

     Against this complicated backdrop, successfully rightsizing NASA’s real property
     footprint will require a sustained commitment from Agency leaders to see its ongoing
     infrastructure-related initiatives through to completion. Specifically, Agency leaders
     must ensure that these initiatives are institutionalized, coordinated, and communicated
     both inside and outside the Agency. They also must be willing to make difficult
     decisions to divest unneeded infrastructure, effectively communicate those decisions to
     stakeholders, and withstand the inevitable pressures from Federal, state, and local
     officials.

     Finally, we acknowledge that NASA’s best efforts to address these challenges may be
     insufficient to overcome the cultural and political obstacles to eliminating or
     consolidating Agency facilities and that an outside process similar to BRAC may be
     necessary.




28                                                                          REPORT NO. IG-13-008
RESULTS


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

To ensure that NASA’s ongoing efforts to evaluate Center capabilities against the current
and future missions of the Agency are completed and that such efforts are conducted on a
regular basis and sustained over time, we made the following recommendations that the
Associate Administrator:

Recommendation 1. Complete the ongoing comprehensive technical capabilities
assessment and ensure the process is established into policy.

   Management’s Response. The Associate Administrator for Mission Support concurred
   with our recommendation, stating that the Agency would continue the technical
   capabilities assessment and incorporate its methodology into NASA policy by
   September 2014.

   Evaluation of Management’s Response. Management’s comments are responsive;
   therefore, the recommendation is resolved and will be closed upon verification and
   completion of the proposed corrective actions.

Recommendation 2. Ensure the assessment includes a process for communicating
decisions to outside stakeholders to promote transparency and agreement.

   Management’s Response. The Associate Administrator for Mission Support concurred
   with our recommendation, stating that NASA plans to communicate significant decisions
   from the technical capabilities assessment to external stakeholders by September 2014.

   Evaluation of Management’s Response. Management’s comments are responsive;
   therefore, the recommendation is resolved and will be closed upon verification and
   completion of the proposed corrective actions.

We also recommended that NASA’s Associate Administrator for Mission Support:

Recommendation 3. Expedite implementation of CPM and ensure the process is updated,
documented, and established into policy.

   Management’s Response. The Associate Administrator for Mission Support concurred
   with our recommendation, stating that NASA will implement a CPM process and
   incorporate it into Agency policy by September 2014.

   Evaluation of Management’s Response. Management’s comments are responsive;
   therefore, the recommendation is resolved and will be closed upon verification and
   completion of the proposed corrective actions.




REPORT NO. IG-13-008                                                                        29
                                                                                      RESULTS

Recommendation 4. a. Implement changes to NTCD to improve data accuracy, including
developing a process to ensure multiple facilities are not captured under one capability.

     Management’s Response. The Associate Administrator for Mission Support concurred
     with our recommendation, stating that NASA will implement processes for capturing data
     in NTCD or alternative databases by September 2014.

     Evaluation of Management’s Response. Management’s comments are responsive;
     therefore, the recommendation is resolved and will be closed upon verification and
     completion of the proposed corrective actions.

Recommendation 4. b. Implement changes to NTCD to improve data accuracy, including
developing and implementing a process to validate data input by the Centers into NTCD.

     Management’s Response. The Associate Administrator for Mission Support concurred
     with our recommendation, stating that NASA will implement processes for validating
     data in NTCD or alternative databases by September 2014.

     Evaluation of Management’s Response. Management’s comments are responsive;
     therefore, the recommendation is resolved and will be closed upon verification and
     completion of the proposed corrective actions.




30                                                                      REPORT NO. IG-13-008
APPENDIX A




                                                                          APPENDIX A


Scope and Methodology

   We performed this audit from September 2011 through December 2012 in accordance
   with generally accepted government auditing standards. Those standards require that we
   plan and perform the audit to obtain sufficient, appropriate evidence to provide a
   reasonable basis for our findings and conclusions based on our audit objectives. We
   believe that the evidence obtained provides a reasonable basis for our findings and
   conclusions based on our audit objectives. Our announced objectives included examining
   NASA’s efforts to identify and reduce unneeded and duplicative infrastructure.

   We reviewed Federal and NASA policies, regulations, and plans to determine the
   requirements and criteria for identifying and assessing the Agency’s unneeded
   infrastructure. The documents we reviewed included Executive Order 13327, ―Federal
   Real Property Management,‖ February 6, 2004; ―NASA Authorization Act of 2010,‖
   Public Law 111-267, Title XI, October 2010; NPR 8800.15B, ―Real Estate Management
   Program,‖ June 21, 2010; ―NASA’s Real Property Management Plan,‖ November 2004;
   and the NASA Corporate Portfolio Management Implementation Plan, dated November
   22, 2010. We also reviewed the past 20 years of Federal legislation regarding the
   reduction of NASA real property.

   We interviewed NASA Headquarters and Center officials concerning the utilization and
   requirements for facilities, the challenges the Agency faces in reducing infrastructure,
   and the progress and plans the Agency has made towards reducing its infrastructure. We
   also reviewed various NASA and external studies concerning utilization and capabilities
   of the Agency’s technical facilities. We had discussions with GAO concerning Federal
   property management best practices and the Department of Defense BRAC process. We
   reviewed the organizational structure of NASA’s Mission Support Directorate and
   discussed the implementation of the new CPM program and NTCD.

   We judgmentally selected 153 facilities and airfields located at the following nine
   Centers: Ames, Glenn, Goddard, Johnson, the Jet Propulsion Laboratory, Kennedy,
   Langley, Marshall, and Stennis. We selected mainly technical facilities because they
   account for the largest proportion of the Agency’s operations and maintenance costs,
   directly enable specific NASA missions, and are used to justify the unique institutional
   capabilities of individual Centers. We distributed questionnaires to the nine Centers to
   determine the current utilization and future requirements for each facility. We performed
   facility inspections and held on-site discussions with facility managers during our visits
   to the following locations: Ames, Glenn, Johnson, Kennedy, Langley, Marshall, Plum
   Brook Station, Stennis, and White Sands.




REPORT NO. IG-13-008                                                                            31
APPENDIXES

     Use of Computer-Processed Data. We used computer-processed data from the NASA
     Real Property Management System to perform this audit. We obtained data from the
     system for the period of October 2010 through September 2011 to select our judgmental
     sample of facilities. As discussed in the NASA OIG report ―NASA Infrastructure and
     Facilities: Assessment of Data Used to Manage Real Property Assets,‖ IG-11-024, dated
     August 4, 2011, we found the data in this system for utilization, mission dependency, and
     condition index was not reliable. However, the accuracy of that data did not affect our
     findings or conclusions.

Review of Internal Controls

     We reviewed and evaluated the internal controls associated with the Mission Support
     Directorate organizational structure and the draft of the Corporate Portfolio Management
     Plan. As discussed in this report, the implementation of the plan was incomplete;
     however, we identified weaknesses in the plan. Our recommendations, if implemented,
     should correct the identified weaknesses.




32                                                                        REPORT NO. IG-13-008
APPENDIXES


Prior Coverage

   During the past 5 years, the NASA OIG, the GAO, the National Research Council, and
   the Research and Development (RAND) Corporations have issued nine reports of
   particular relevance to the subject of this report. Unrestricted reports can be accessed on
   the Internet at http://oig.nasa.gov/ (NASA OIG), http://www.gao.gov (GAO),
   http://nap.edu/ (National Research Council) and http://rand.org (RAND Corporation).

   NASA Office of Inspector General

   ―NASA’s Infrastructure and Facilities: An Assessment of the Agency’s Real Property
    Leasing Practices‖ (IG-12-020, August 9, 2012); ―NASA’s Infrastructure and Facilities:
    An Assessment of the Agency’s Real Property Master Planning‖ (IG-12-008,
    December 19, 2011)

   ―NASA Infrastructure and Facilities: Assessment of Data Used to Manage Real Property
    Assets‖ (IG-11-024, August 4, 2011)

   ―Audit of NASA’s Facilities Maintenance‖ (IG-11-015, March 2, 2011)

   Government Accountability Office

   ―Federal Real Property: Proposed Civilian Board Could Address Disposal of Unneeded
    Facilities‖ (GAO-11-704T, June, 9, 2011)

   ―Federal Real Property: An Update on High Risk Issues‖ (GAO-09-801T, July 15, 2009)

   ―Federal Real Property: Government’s Fiscal Exposure from Repair and Maintenance
    Backlogs Is Unclear;‖ (GAO-09-10, October 16, 2008)

   National Research Council

   ―Capabilities for the Future: An Assessment of NASA Laboratories for Basic Research‖
    (2010)

   Research and Development Corporation

   ―An Update of the Nation’s Long-Term Strategic Needs for NASA’s Aeronautics Test
    Facilities‖ (2009)




REPORT NO. IG-13-008                                                                             33
                      APPENDIX B




     MANAGEMENT COMMENTS




34           REPORT NO. IG-13-008
APPENDIX B




REPORT NO. IG-13-008   35
                                                                                      APPENDIX C



                                                            REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Associate Administrator
     Chief Financial Officer
     Chief Engineer
     Associate Administrator for Aeronautics Research
     Associate Administrator for Human Exploration and Operations
     Associate Administrator for Mission Support
        Assistant Administrator for the Office of Strategic Infrastructure
     Associate Administrator for Science
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Ames Research Center
     Director, Glenn Research Center
     Director, Johnson Space Center
     Director, Kennedy Space Center
     Director, Langley Research Center
     Director, Marshall Space Flight Center
     Director, Stennis Space Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies




36                                                                           REPORT NO. IG-13-008
APPENDIX C


Congressional Committees and Subcommittees, Chairman and
  Ranking Member (continued)

   House Committee on Oversight and Government Reform
      Subcommittee on Government Organization, Efficiency, and Financial Management
   House Committee on Science, Space, and Technology
      Subcommittee on Investigations and Oversight
      Subcommittee on Space and Aeronautics




REPORT NO. IG-13-008                                                                  37
Major Contributors to the Report:
   Ridge Bowman, Director, Space Operations Directorate
   Michael Brant, Project Manager
   Tekla Szelong, Project Manager
   Megan Paxton, Lead Auditor
   Amanda Parker, Management Analyst
   Andrew McGuire, Management Analyst
   Myra Thompson, Auditor
   Wayne Emberton, Auditor




REPORT NO. IG-13-008                                      39
                                                                                  FEBRUARY 12, 2013
                                                                       REPORT NO. IG-13-008




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
